Office of Inspector General



      AVIATION INDUSTRY PERFORMANCE
   A Review of the Aviation Industry, 2008–2011


              Number: CC-2012-029
        Date Issued: September 24, 2012
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Aviation Industry Performance:                                      Date:   September 24, 2012
           A Review of the Aviation Industry, 2008–2011
           Controlled Correspondence No. 2012-029

  From:    Calvin L. Scovel III
           Inspector General

    To:    The Secretary
           Acting Federal Aviation Administrator
           Assistant Secretary for Aviation and International Affairs

           Since its inception, the aviation industry has undergone significant transformations
           as a result of technological developments, economic pressures, and other factors.
           Most recently, economic recession and recurrent high fuel costs have challenged
           U.S. airlines, which have taken a number of actions to lower costs and increase
           revenue—including capacity reductions, fare increases, baggage fees, and
           mergers.

           Beginning in 2002, the Office of Inspector General has issued periodic reports
           regarding the performance of the aviation industry. This report, the 11th in the
           series, focuses primarily on industry performance during the 2008–2011 period
           and summarizes long-term trends since 2000. This report also highlights issues
           related to changes in airlines’ business environment, the industry’s reactions to
           those changes, and the impact of these actions on the traveling public. Finally, this
           report includes exhibits with more than 40 statistical charts (or metrics) organized
           in five areas: airline finances, air traffic, flight service, delays and cancellations,
           and customer service. 1 For a detailed discussion of our scope and methodology,
           see exhibit A.




           1
               For a list of all exhibits included in this report, see the Table of Contents on page 15.
                                                                                                                      2


OVERVIEW
Over the past decade, the airline industry has faced significant changes in its
operating environment, including high and volatile fuel prices and an economic
recession that reduced demand for travel. For example, while airlines spent only
10 percent of their operating costs on fuel in 2001, by 2011 this had risen to
35 percent—near the all time high of 40 percent in 2008. As a result of these and
other factors, the industry has experienced considerable financial strain that has
led to more than 50 U.S. passenger and cargo airlines filing for bankruptcy in the
last 12 years. Ultimately, these changes to the operating climate have
fundamentally challenged the industry’s ability to sustain itself using its old
business models.

The trends presented in this report portray an industry that has been in flux since
2008—one that is transforming to restore profitability and adapting to survive the
challenges of a sustained economic downturn. For instance, airlines have
responded to the changing economic landscape by introducing new passenger fees
(e.g., baggage fees), reducing the number of scheduled flights, and filling vacant
seats. Moreover, the recent series of significant airline mergers has reduced the
number of airlines serving the bulk of the domestic passenger market from 10 in
2000 to 5 in 2012, which has dramatically consolidated control of the industry. 2

These and other airline actions have had a significant impact on the industry as a
whole, as well as the traveling public. Specifically, airlines have become more
aggressive in adjusting fares and flights to respond to fluctuations in fuel prices
and demand and have become more profitable as a result. At the same time, the
travel experience for the flying public has changed both positively and negatively.
For example, there has been a significant reduction in flight delays 3 and
cancellations in recent years. Yet there has also been a significant reduction in
service at some hub airports and in short-haul flights (i.e., less than 500 miles),
which in turn is limiting the choices of many air travelers.

Further details of these changes in business conditions, airline actions, and their
impacts are described below. Ultimately, the trends presented in this report
suggest that the changes in the number of airlines controlling the industry, fare
increases, and capacity reductions that began in 2008 are not a brief phase, but
rather are signs of a greater shift in the industry that will remain for years to come.




2
    While there were dozens of other passenger airlines operating in the United States at these times, collectively they
    account for less than 15 percent of total passenger traffic.
3
    A flight is considered delayed when it arrives (gate-in) 15 minutes or more after its scheduled arrival
    time.
                                                                                                 3


AIRLINES FACE A CHANGING FINANCIAL LANDSCAPE
After a Dramatic Rise in 2008, Fuel Costs Have Remained Volatile,
Increasing Airline Operating Costs
One of the most significant influences on the airline industry in recent years has
been the price of fuel. Although fuel prices had been rising since 2001, the
industry was seriously challenged by the near doubling of the cost per gallon in
2008. After 2008, prices declined quickly to 2007 levels, but have since risen
again—especially in 2011 and early 2012 (see figure 1).

                                 Figure 1. Historical Fuel Prices
                                     (US Gulf Coast Kerosene Jet Fuel)




          Source: Energy Information Administration (U.S. Dept. of Energy)



The recent resurgence in prices                     Figure 2.Cost per Available Seat-Mile (CASM)
has pushed fuel expenses to                                    With and Without Fuel
35 percent of airline operating
costs in 2011, near the all-time
high of 40 percent experienced
in 2008 (see figure 2). In
contrast,    fuel    was    only
10 percent of operating costs in
2001. Fuel is now the largest
single component of airline
costs, exceeding payroll and
fringe benefits costs—with U.S.
airlines spending $31 billion for
fuel in 2011 or triple the
expense of 2000. In fact,
                                                   Source: Bureau of Transportation Statistics
                                                                                     4


concerns over access to jet fuel and price volatility prompted Delta Air Lines to
recently acquire its own oil refinery.

Despite the rising cost of fuel, the airlines have successfully maintained non-fuel
operating cost near their previous levels (see blue line in figure 2). For instance,
while the airlines’ total cost per available seat-mile 4 (CASM) has grown, most of
the increase is attributable to rising fuel costs. As a result, the rising and volatile
price of fuel now has a much greater influence on whether the airlines add or cut a
flight and how frequently fares need to be adjusted.

Economic Recession Has Reduced the Demand for Air Travel
The airline industry has also been impacted by the recent economic recession,
which has reduced the public’s ability to purchase air travel. Consequently, the
demand for air travel has dropped as consumers experienced the impact of
growing unemployment and rising expenses for basic necessities affected by
petroleum prices (e.g., commuting, utilities, and food).

Figure 3 shows that per capita disposable income (i.e., those funds available for
leisure travel) rose continuously for most of the last decade. The main exception
was during the 2008–2009 recession, when incomes suffered a serious
interruption—leading to an overall reduction in purchasing power. Since then,
income levels have again begun to rise, but at a slower pace than in previous
years.

           Figure 3. Per Capita Disposable Income (Inflation Adjusted to 2000)




                      Source: Bureau of Economic Anlaysis (Census Bureau)




4
    See exhibit G for a glossary of airline industry terms used in this report.
                                                                                                                         5


Major and Regional Airlines Have Faced Increased Financial Strain
Fuel costs, economic pressures, and competition have forced airlines into
bankruptcy and reorganization to address accumulated losses, mounting debt, and
labor issues (e.g., wages, benefits, and work rules). Since 2000, 51 U.S. passenger
and cargo airlines have filed for bankruptcy—of which 13 were in 2008 alone.
While the pace has slackened in recent years, 7 of the 51 airlines filed for
bankruptcy in just the last 12 months, including American Airlines, its regional
carriers American Eagle and Executive Airlines, Pinnacle Airlines, Colgan Air,
Ryan International, and World Airways. American Airlines is the last of the pre-
deregulation interstate airlines to file for bankruptcy. 5

As figure 4 illustrates, legacy airlines 6 (in yellow) amassed a growing amount of
financial losses between 2000 and 2009, losing a total of $62.8 billion by the end
of 2009. U.S. low-cost carriers 7 (in blue) compiled limited profits during that same
period, totaling $2.1 billion. Since 2009, legacy airlines, as a group, have reported
improvements in profits, while the low-cost carrier group continued to be
profitable.
                   Figure 4. Accumulated Net Losses and Gains
                                          Legacy and Low-Cost Airlines




                   Source: Bureau of Transportation Statistics

Significant challenges are also affecting regional airlines—those carriers operating
aircraft generally smaller (i.e., less than 100 seats) and often under code-sharing

5
    In 1978, Congress deregulated the airline industry, removing government controls over fares, routes, and market
    entries from commercial aviation.
6
    For the purposes of this report, the category legacy airline includes Alaska Airlines, American Airlines, Continental
    Airlines, Delta Air Lines, Northwest Airlines, United Airlines, and US Airways.
7
    Low-cost carriers are a group of generally new entrant airlines with operating costs lower than the older airlines. For
    a list of airlines considered low-cost for the purposes of this report, see the Glossary section of the report.
                                                                                                                          6


contracts 8 with major airlines. In addition to facing higher fuel costs, regional
airlines face less demand for their 50-seat jets used on short-haul flights. For
example, in June 2012, Delta Air Lines announced plans to cut 200 50-seat jets
from service between 2012 and 2015, 9 representing a 25 percent drop for the
entire industry’s inventory of this type of aircraft. Regional airlines will also likely
find themselves impacted by new Federal rules and regulations. For example,
regulatory changes establishing new minimum pilot rest times may result in
needing to hire as many as 4,300 additional pilots, and a recently proposed
regulation establishing higher minimum qualifications for copilots may make
finding eligible applicants to fill the new positions more difficult. 10

INDUSTRY IS TRANSFORMING AND ADAPTING TO RESTORE
PROFITABILITY
Airline Mergers Have Dramatically Consolidated and Transformed
Control of the Industry
The rapid increase in fuel costs and the economic recession of 2008 have
prompted significant changes by U.S. airlines in order to restore profitability. One
response to these challenges has been a series of airline mergers resulting in
significant consolidation and economic control of passenger ridership. In 2000,
10 airlines accounted for slightly more than 90 percent of available seat-mile
capacity in the United States. By early 2012, those 10 airlines, through mergers,
were reduced to 5 airlines controlling about 85 percent of the domestic passenger
market (see figure 5). Moreover, US Airways is seeking a merger with American
Airlines—which would further reduce the number of airlines controlling the vast
majority of passenger ridership to only four.




8
     Code sharing agreements are joint marketing arrangements in which mainline carriers either sell seats on, purchase
     seat capacity on, or contract for entire flights of a regional airline to fly passengers under the brand name of the
     mainline carrier.
9
     The reduction will include regional jets operated by Delta’s wholly owned subsidiary Comair (which is ceasing
     operation later this year) as well as those operated by other regional airlines operating under contract to Delta.
10
     Closure of regional airline Comair is unlikely to alleviate the need for additional pilots since parent Delta Air Lines
     stated that no flying would be cut.
                                                                                                                   7


          Figure 5. The Accelerating Consolidation of the U.S. Airline Industry




            Source: Bureau of Transportation Statistics


These industry mergers have enabled the newly combined airlines to cut costs by
reducing previously competing flights and redundant hub operations as well as
consolidating operations. For example, in the Delta/Northwest merger, hub
operations at Cincinnati and Memphis airports have been reduced by 63 and
36 percent, respectively, between June 2007 and June 2012. Likewise, at some
other airports, airlines have sought to increase profitability by consolidating
operations. For example, Delta Air Lines traded “slots” 11 to operate 42 round-trip
flights at Washington Reagan National airport to US Airways in exchange for slots
to operate 132 round-trip flights at New York LaGuardia airport. This transaction
increases Delta’s control of market share in New York and US Airway’s control in
Washington, DC.

Airlines Have Reduced the Number of Flights Offered While
Increasing Load Factors and Use of Regional Airlines
Due to the high price of fuel and lower demand for travel, airlines have
significantly cut back on available capacity by reducing the number of flights—
especially those involving smaller aircraft. For example, airlines reduced the
number of domestic scheduled passenger flights by 13.9 percent between
June 2007 and June 2012. Many of these flights were cut in the 2008–2009 period
and have not been restored. Most recently, the number of scheduled flights
declined by 2.8 percent between June 2011 and June 2012. However, the available



11
     To manage airspace congestion and safety, FAA limits the number of hourly flight operations at Washington Reagan
     National airport and the three New York area airports, LaGuardia, J.F. Kennedy, and Newark. Airlines are not
     permitted to initiate or expand air service at those airports unless they possess one of the limited number of
     authorizations (i.e., “slots”).
                                                                                                                    8


seat-miles (ASMs) 12 were unchanged, largely because most cuts were in short-
haul flights involving smaller aircraft with fewer seats.

These data demonstrate that the airlines have adapted and developed new means
for managing excess capacity. The airlines’ actions of cutting capacity (as
measured in ASMs) while passenger traffic increased has resulted in more tightly
packed flights, causing the percentage of seats occupied during flights (known as
the load factor) to climb (see figure 6). This in turn increases the airlines’ revenue
per flight. Moreover, as airlines have fewer empty seats on their flights, they are
less inclined to offer discounted fares. This presents a marked contrast from the
business model of the 1980s, when airlines previously had a larger number of
empty seats and relied on promotions and reduced fares to attract passengers.
                        Figure 6. Domestic Passenger Traffic and Capacity




               Source: Bureau of Transportation Statistics

Major passenger airlines have also increased the number of their advertised flights
that are operated by subcontractor regional airlines under code-sharing agreements
in an effort to cut operating costs and gather feeder traffic from smaller cities. In
2011, 61 percent of the advertised flights for American, Delta, United, and
US Airways were operated by code-share regional airlines, up from 40 percent in
2000. 13



12
     Available Seat-mile (ASM) is a measure of airline capacity. One ASM is equal to one seat transported one mile.
13
     Southwest Airlines and its merger partner AirTran were excluded from this analysis since neither airline utilizes
     code-sharing in their operations.
                                                                                                                       9


Airlines Have Increased Revenue Through Fare Increases and New
Fees
By reducing the number of available flights, airlines have been able to increase the
fares for the seats that remain (see figure 7). This is particularly the case with
short-haul flights, which have seen a significant reduction in the number of flights,
as well as a sharp increase in fares. Overall, the industry attempted 22 fare
increases in 2011, of which 11 were successful. 14 In 2012, airlines have already
attempted eight fare increases, four of which have been successful.

                  Figure 7. Average Fares By Flight Length (2000–2011)




             Source: Bureau of Transportation Statistics

The airlines have also increased revenue by implementing additional fees for
services that previously were included in the base ticket price. For example,
checking baggage, selecting seats, food, and blankets are now add-on services
requiring passengers to pay fees. Baggage fees alone contributed $2.7 billion in
additional revenue to the airlines in 2011. Overall, passenger fees have increased
by $19 per round-trip (from $3 to $22) between 2000 and 2010, 15 according to the
industry association Airlines For America. 16 In addition to charging for checked
baggage, some airlines (see table 1) are also beginning to charge for carry-on
luggage and seat selection.



14
   Airfare changes initiated by an airline are considered successful if competitors also adopt an increase. Attempts are
   unsuccessful if there is not wide-spread matching by other airlines, usually resulting in a withdrawal of the original
   increase.
15
   These figures represent an average across all passengers, including those not paying for extra services. Actual fees
   paid by passengers using the ancillary services exceed the average.
16
   Presentation by Airlines For America before the Transportation Research Board, January 24, 2012.
                                                                                    10


                          Table 1. Summary of Airline Fees (April 2012)




               1
                   More than 24 hours after ticket purchase
               2
                   No seat can be selected at time of purchase without a fee
                   Source: Airline Web sites


INDUSTRY ACTIONS HAVE IMPROVED AIRLINE PROFITABILITY
WHILE IMPACTING SERVICE TO THE FLYING PUBLIC
Airlines Have Become Profitable Again
The industry’s strategies of consolidating airlines, cutting flights, and raising fares
have produced positive financial results. As figure 8 shows, despite the pressures
of high fuel costs and reduced passenger demand, major airlines collectively have
moved from a series of annual operating losses from 2001 to 2005, to breaking
even in 2009, and, most recently, to earning operating profits in 2010 and 2011.

     Figure 8. Domestic Operating Profit and Loss of Major U.S. Airlines




     Source: Bureau of Transportation Statistics
                                                                                 11


Airlines have also become more adaptable to changes in their business
environment, thereby minimizing potential losses. For example, while a further
escalation in fuel prices in early 2011 cut into profits in the first and second
quarters, major U.S. airlines still earned about $5 billion for the year.

Passenger Travel Is Experiencing a Slow Recovery
Since its most recent low in 2009 (704 million passengers), passenger ridership
has recovered somewhat, but has yet to reach the levels experienced prior to the
economic recession of 2008 (see figure 9). In 2011, there were 730 million
passenger enplanements, down from a high of 770 million in 2007. Numbers for
the first 5 months of 2012 show little growth in passenger ridership year-over-
year. However, given the series of fare increases during this period, this may be
considered a positive trend, as it demonstrates that passengers are still willing to
fly even if it costs them more.

                               Figure 9. Passenger Enplanements




          Source: Bureau of Transportation Statistics


Airline Actions Have Resulted in Reduced Service to Some Airports
and Fewer Short-Flight Travel Opportunities for Passengers
Although the industry’s recent actions have restored profitability, some actions
have also reduced travel opportunities for passengers. For example, the availability
of short-haul flights for passengers has been greatly impacted. In June 2012, the
number of scheduled domestic passenger flights of less than 250 miles was
24 percent lower than it was in June 2007. In addition, the number of flights in the
250–499 mile range declined by 16 percent. Combined, flights in these two
                                                                                                                 12


distance brackets represent a reduction of 3,000 flights per day or three-quarters of
all flight reductions experienced between June 2007 and June 2012.

Passengers in small communities and in short-haul markets can anticipate further
cuts in scheduled air service as a result of the reduction of the number of 50-seat
aircraft in the regional airline fleet. Furthermore, the FAA Modernization and
Reform Act of 2012 significantly altered the protection that small communities
previously enjoyed under the Essential Air Service (EAS) program. 17 The Act
modified the program by restricting the existing protections to only those
communities receiving subsidized service between September 30, 2010, and
September 30, 2011. This modification also makes it easier for airlines to reduce
the number of communities they support, without advanced notice of withdrawal.
The roughly 50 small communities currently served by only one air carrier are
particularly vulnerable.

Airlines have also reduced service by downsizing hub operations following
mergers and bankruptcy reorganizations, which has greatly impacted some
airports. In particular, five airports (Cincinnati, Cleveland, Memphis, Pittsburgh,
and St. Louis) have experienced partial or complete closure of their major airline’s
hub operations (see table 2). Combined, these five airports experienced a nearly
40 percent reduction in departing scheduled passenger flights between June 2007
and June 2012.
                          Table 2. Flight Cutbacks at Selected Hub Airports
                                                     Scheduled             Scheduled
                                                     Passenger             Passenger              Percent
          Hub Airport             Hub Airline
                                                      Flights               Flights               Change
                                                     June 2007             June 2012
        Cincinnati             Delta                   12,781                 4,710                -63.1%
        Cleveland              Continental              9,070                 6,684                -26.3%
        Memphis                Northwest                8,227                 5,308                -35.5%
        Pittsburgh             US Airways               7,462                 4,470                -40.1%
        St. Louis              American                 9,503                 7,127                -25.0%
        Total 5 Hubs                                   47,043                 28,299               -39.8%

       Source: Federal Aviation Administration




17
     The Essential Air Service (EAS) program was originally created to ensure a minimal level of air service to small
     communities since industry deregulation in 1978. Prior to the recent legislation changes, the program required
     airlines to provide advanced notice before removing service from a community and to continue service until a
     replacement airline was found (with subsidy if necessary). Following the recent changes, no new airports in the
     lower 48 States may be added to the subsidy program, and airlines intending to exit a community (not already
     receiving subsidized service) do not have to supply advanced notice of withdrawal.
                                                                                                       13


Passengers Benefit From Fewer Flight Delays and Cancellations
Even though facing fewer flight options, the flying public has benefited from some
improvements in the overall flight experience—especially with respect to the
number of flight delays and cancellations. In particular, the drop in flights has
translated into fewer delays and cancellations and better on-time performance
since 2007. At the 55 airports tracked by FAA, the percentage of flights arriving
on time improved from 71 percent in 2007 to 77 percent in 2011, with the first
5 months of 2012 having the best on-time performance since 1988 (84 percent). At
the request of Congress, our office has recently started an audit to study how flight
delays have changed since 2000. 18

As figure 10 shows, the recent downturn in the rate of delays and cancellations has
coincided with a reduction in the number of operated flights. In particular, the
percentage of delayed or cancelled flights dropped from its peak of 29 percent in
2007 to 23 percent in 2011. The close correlation between the number of operating
flights and percentage of delays and cancellations suggests that this trend may be a
longer lasting one, provided that airlines continue to reduce or maintain their total
number of flights.
                     Figure 10. Total Flight Operations and Percentage of
                                 Delayed or Cancelled Flights




               Source: Federal Aviation Administration




18
     OIG audit announcement memorandum, “Air Carrier Flight Delays and Cancellations,” April 16, 2012. OIG
     memorandums and reports are available on our Web site at http://www.oig.dot.gov/.
                                                                                      14


CONCLUSION
The airline industry remains one of the most important in the American economy,
with wide-reaching impacts on consumers and the workforce. However,
significant and frequent challenges to the economic and operating environment
appear to be the new norm for the airline industry, causing airlines to innovate and
take drastic action to survive. Although the industry is still in transition, the data in
this report suggest that some of the most significant trends of recent years—
including but not limited to a more consolidated industry with less competition,
fewer flight options for small communities, and revenue-enhancing baggage and
other fees—may continue for the foreseeable future as airlines further improve
their adaptability to changing market forces.
                                                                                                                   15



                                          LIST OF EXHIBITS
EXHIBIT A. SCOPE AND METHODOLOGY ................................................ 18

EXHIBIT B. AIRLINE FINANCES ................................................................... 21

    Figure 11: Major Passenger Carriers Operating Revenues and Expenses ....... 21

    Figure 12: Selected Legacy and Low-Cost Carriers Operating Profit
               or Loss ............................................................................................. 21

    Figure 13: Fuel Cost and Consumption ............................................................ 22

    Figure 14: Debt-To-Investment Ratio for all Major Airlines ........................... 23

    Figure 15: Debt-To-Investment Ratio by Airline ............................................. 23

    Figure 16: Aviation Related Employment for U.S. Certificated Air Carriers . 23

    Figure 17: Status of the Airport and Airway Trust Fund ................................. 24

EXHIBIT C. AIRLINE TRAFFIC AND CAPACITY ..................................... 25

    Figure 18: Passenger Enplanements ................................................................. 25

    Figure 19: Domestic Traffic and Capacity ....................................................... 25

    Figure 20: Domestic Versus International Passenger Traffic (in RPMs) ........ 26

    Figure 21: International Passenger Traffic by Region (in RPMs) ................... 26

    Figure 22: Domestic and International Air Cargo Revenue Ton-Miles
               (RTMs) ............................................................................................ 27

EXHIBIT D. SCHEDULED FLIGHT SERVICE ............................................. 28

    Figure 23: Change in Scheduled Flights for Legacy and Low-Cost Carriers .. 28

    Figure 24: Percent of Scheduled Flights by Code Share Partners.................... 28

    Figure 25: Regional Changes in Available Seats ............................................. 29

    Figure 26: Percent Change in Scheduled Flights by Flight Distance ............... 29

    Figure 27: Available Seats on Short-Haul Flights by Type of Air Carrier ...... 29



List of Exhibits
                                                                                                            16


   Figure 28: Change in Scheduled Flights at Major Airports ............................. 30

   Figure 29: Change in Scheduled Domestic Flights by Aircraft Size ............... 31

   Table 3:       Change in Domestic Competition ................................................... 31

   Figure 30: Change in Scheduled Departures by Size of Community .............. 32

   Figure 31: Regional Changes in Available Seats at Non-Hub Airports........... 32

   Figure 32: Essential Air Service Funding and Number of
              Subsidized Communities ................................................................ 33

EXHIBIT E. DELAYS AND CANCELLATIONS ........................................... 34

   Figure 33: Number of En Route Center Flight Operations .............................. 34

   Figure 34: Number of Tower Flight Operations .............................................. 34

   Figure 35: Percent Change in the Number of Arrivals at Major Airports ....... 34

   Figure 36: Delayed Flights at Major Airports .................................................. 35

   Figure 37: Rate of Delayed Flights at Major Airports ..................................... 35

   Figure 38: Length of Flight Delays at Major Airports ..................................... 35

   Figure 39: Number of Flights with Tarmac Delays of Longer
              Than 3 Hours .................................................................................. 36

   Figure 40: Flight Cancellations at Major Airports ........................................... 36

   Figure 41: Rate of Delayed Flights at Congested Airports .............................. 37

   Figure 42: Percent Change in Number of Delays at
              Three Best and Worst Airports ....................................................... 37

   Figure 43: Airline Reported Causes of Flight Delays ...................................... 38

   Figure 44: Causes of Flight Delays – Adjusted For Late Arriving Aircraft .... 38




List of Exhibits
                                                                                                                      17


EXHIBIT F. CUSTOMER SERVICE................................................................ 39

   Figure 45: Number of Passengers Denied Boarding vs. Enplaned
   Passengers ......................................................................................................... 39

   Figure 46: Rate of Passengers Denied Boarding by Airline ............................ 40

   Figure 47: Number of Mishandled Bag Reports vs. Enplaned
   Passengers ......................................................................................................... 40

   Figure 48: Rate of Mishandled Bag Reports by Airline................................... 41

   Figure 49: Number of Passenger Complaints vs. Enplaned Passengers .......... 41

   Figure 50: Rate of Passenger Complaints by Airline ....................................... 42

   Figure 51: Types of Passenger Complaints Reported ...................................... 42

EXHIBIT G. GLOSSARY OF COMMONLY USED TERMS ....................... 44

EXHIBIT H. MAJOR CONTRIBUTORS TO THIS REPORT...................... 48




List of Exhibits
                                                                                  18


EXHIBIT A. SCOPE AND METHODOLOGY
Data represented graphically in the report were collected from the Department of
Transportation’s Federal Aviation Administration (FAA), the Bureau of
Transportation Statistics (BTS), the Office of Aviation Analyses (OAA), and the
Aviation Consumer Protection Division (ACPD). The secondary sources of data
were the Department of Energy’s (DOE) Energy Information Administration.
FAA, BTS, OAA and ACPD are organizations within the Department of
Transportation.

We did not systematically audit or validate the data contained in any of the
databases. However, for previous editions of this report, we conducted trend
analyses and random checks of the data to assess reasonableness and
comprehensiveness. When our judgmental sampling identified anomalies or
apparent limitations in the data, we held discussions with the relevant database
managers to better understand the data and attempt to resolve the inconsistencies.
We did not perform sufficient tests to draw conclusions or form an opinion on the
completeness or accuracy of the data sources.

We met periodically with staff from FAA, BTS, OAA, and ACPD to discuss data
issues and obtain feedback on modifications we made to existing data in order to
more accurately represent industry trends.

A.    Analyses Performed With BTS Data
Financial, traffic, operational statistics, employment, and passenger ticket survey
information obtained from the BTS sources were used in financial and statistical
analyses of history, trends, employment levels, status and performance of financial
condition, net profits and losses, debt and investment and load factors.
Specifically, we analyzed:

     1. Air Carrier Financial Statistics. A compilation of financial reports
        submitted by air carriers as required under Title 14 Code of Federal
        Regulations (CFR) Part 241 (Form 41). Scope: all certificated U.S. air
        carriers, from 2000 through the fourth quarter 2011.
     2. Air Carrier Traffic Statistics. A compilation of traffic and capacity reports
        submitted by air carriers as required under 14 CFR Part 241 (Form 41).
        Scope: all certificated U.S. air carriers (passenger and cargo), commuter air
        carriers, and foreign air carriers operating to and from the United States,
        from 2000 through the fourth quarter 2011.
     3. Origin and Destination Survey of Passenger Travel (O&D Survey). A
        compilation of surveyed ticket information submitted quarterly as required



Exhibit A. Scope and Methodology
                                                                                   19


        under 14 CFR Part 241 (Form 41). Scope: 10-percent sample of tickets
        used by passengers, from 2000 through the fourth quarter 2011.
B.    Analyses Performed With OAA Data
Financial, traffic, and operational statistics obtained from OAA sources were used
in financial and statistical analyses of history, trends, status, and performance of
airline revenues, expenses, profits, traffic and capacity, and the EAS Program.
Specifically, we analyzed:

     1. Airlines’ Quarterly Financial Review. A quarterly report analyzing the
        financial and operating performance and condition of the major airlines in
        the United States. Prepared using financial and traffic statistics reported to
        BTS by the airlines. Scope: 15 major air carriers (13 passenger and 2 all-
        cargo carriers), from 2000 through the fourth quarter 2011.
     2. EAS Program. Information on EAS budgets and number of communities
        served was supplied to the OIG by EAS program administrators. Scope:
        Budget and program activity for fiscal years (FY) 2001 through 2011 and
        Congressional appropriations and limitations for FY2012 through FY2015.
     3. Domestic Airline Fares Consumer Report. A quarterly report that supplies
        the average air fare paid by passengers traveling in distinct airport pair
        markets with an average of 10 or more daily passengers. Prepared using the
        DOT Domestic edition of the Origin and Destination Survey of Passenger
        Travel (O&D Survey). Scope: A 10-percent sample of tickets of passengers
        traveling on domestic flights within the 48 states, quarterly from 2000
        through 2011.
C.    Analyses Performed With ACPD Data
Customer service statistics obtained from ACPD were used to compile the history
and trends for passengers denied boarding, mishandled bags, and complaints.
Specifically, we analyzed:

     1. Air Travel Consumer Report. A monthly report published by ACPD about
        airline on-time performance that includes passengers denied boarding,
        mishandled baggage reports, and consumer complaints. Passengers denied
        boarding and mishandled baggage reports are based on data submitted to
        BTS by the airlines as required per 14 CFR Part 234. Scope: 15 major U.S.
        air carriers domestic schedule from 2000 through 2011. For consumer
        complaints, the report is based on data collected directly by ACPD. Scope:
        All U.S. and Foreign air carriers serving the U.S. domestic market from
        2000 through 2011.




Exhibit A. Scope and Methodology
                                                                                   20


D.    Analyses Performed With FAA Data
Air Traffic Control delay and operational statistics and airline flight schedule data
obtained from FAA sources were used in statistical analyses of history, trends,
status, and performance of air traffic control management and delays; airline
scheduled capacity, operations, and market share; and aircraft type usage.
Specifically, we analyzed:

     1. Flight Schedule Data System (FSDS). A database of published airline flight
        schedules. Scope: domestic service, June 2000, June 2007, and June 2012.
     2. Aviation System Performance Metrics (ASPM). A database of FAA air
        traffic control performance measures including delays, cancellations,
        operations, and causes for delays. Scope: 55 major airports across the
        country from 2000 through 2011.
     3. Operations Network (OPSNET). A database of IFR and VFR aircraft
        movement operations handled by the various FAA Air Traffic Control
        facilities. Scope: All IFR operations at air route traffic control centers and
        airport towers from 2000 through 2011.




Exhibit A. Scope and Methodology
                                                                                       21


EXHIBIT B. AIRLINE FINANCES
Airline       Revenues        and        Figure 11. Major Passenger Carriers’
Expenses. On the whole, airline             Operating Revenues and Expenses
expenses have increased in
recent years, but so have airline
revenues. As illustrated by
figure 11, system operating
expenses for the major passenger
carriers rose to $137.9 billion in
2011, up 14.3 percent over 2010,
propelled by increasing fuel
costs. During the same period,
operating revenues for 2011
grew at a slightly slower rate of
11.2 percent over 2010 to
$142.8 billion, as airlines were
unable to raise fares to cover all
                                     Source: Bureau of Transportation Statistics
cost increases. Nevertheless, this
marked the third consecutive year, and the fifth of the last six, in which operating
revenues exceeded operating expenses (producing operating profits) for the major
passenger airlines.

Selected      Airline      Operating     Figure 12. Selected Legacy and Low-Cost
Profits or Losses. Generally, 2011        Carriers Operating Profit or Loss, 2011
financial results for individual
airlines were positive, but their
profit     and      losses    varied
extensively, with one airline
posting more than $2 billion in
profits and another posting more
than $1 billion in losses. As shown
in figure 12, 7 of 10 selected
airlines posted system operating
profits for 2011. Delta Air Lines
posted an operating profit of $2.2
billion for 2011, more than double
the $950 million reported by
Continental. JetBlue’s $324 million
operating profit was the smallest of
the selected 10 airlines. AirTran
Airways incurred a modest
$16 million operating loss for the

                                         Source: Bureau of Transportation Statistics
Exhibit B. Airline Finances
                                                                                    22


year, followed by Frontier Airlines with $112 million loss. Finally, American
Airlines incurred an operating loss of $1.2 billion. Of the total loss, American
reported that $917 million was attributable to special charges and bankruptcy
reorganization actions, in which the airline wrote off the value of aircraft returned
to lenders and revaluation of other assets.

Fuel Cost and Consumption. As previously discussed, recent increases in the
cost of fuel have impacted airlines significantly, the magnitude of which is shown
in figure 13. Overall, the total cost of fuel for domestic airline operations has risen
(red line) in parallel with the price per gallon (green line), even though the
industry has reduced its fuel consumption at the same time (blue line).

                          Figure 13. Fuel Cost and Consumption
                                              Domestic Service




               Source: Bureau of Transportation Statistics

Debt-to-Investment Ratio. A key metric for assessing the industry’s overall
financial condition is the ratio of debt to total investment (or, debt plus stockholder
equity), which helps gauge how self-sustaining the industry is and how heavily it
relies on debt to finance its operations. As shown by figures 14 and 15, the airline
industry increasingly relied on debt to remain in operation during the first half of
the last decade. In particular, the industry’s financial condition markedly
deteriorated between 2000, when half of all investment was financed by debt, and
2004, when every dollar of investment was in the form of debt (essentially, the
industry had no remaining reserves of profits).

However, debt-to-investment ratios have improved considerably since the 2004–
2005 time period. This improvement (as reflected in a lower ratio) was a result of
both the write-off of debt during bankruptcy procedures (as nearly every major
airline filed for bankruptcy during the period) as well as improved profits in the

Exhibit B. Airline Finances
                                                                                                                     23


 most recent years. As a group, the major airlines’ debt to investment ratio was at
 its worst at the end of 2005, just after Delta Air Lines and Northwest Airlines both
 filed for Chapter 11 bankruptcy. Thereafter, the industry relied less on debt to
 finance its business, with the ratio of debt to total investment falling to 59 percent
 in 2007. In recent years, the ratio has risen again to between 75 and 89 percent. At
 the end of 2011, three airlines had debt to investment ratios that were worse than
 the group average (84.3 percent): AirTran (103 percent), United (140 percent), and
 American (-1,046 percent). 19

Figure 14. Debt-To-Investment Ratio for                            Figure 15. Debt-To-Investment Ratio by
           all Major Airlines                                             Airline, 4th Quarter 2011




Source: DOT Office of Aviation Analysis                            Source: DOT Office of Aviation Analysis


 Airline Employment. Reductions in                            Figure 16. Aviation Related Employment for
 flights   in    2009     resulted     in                            U.S. Certificated Air Carriers
 corresponding declines in airline
 employment levels, 20 which have only
 recovered slightly in the last 2 years.
 As seen in figure 16, between 2008
 and 2009, U.S. certificated airlines cut
 52,000 (or 9.6 percent) full-time
 equivalent employees 21 with total
 employment declining to 513,000, the
 lowest in a decade. Airline
 employment has since increased
 slightly during 2010 and 2011, rising
                                                                 Source: Bureau of Transportation Statistics

 19
      American’s unusual negative ratio of debt to total investment is due to large accumulated net losses resulting from
      accounting write-offs during the bankruptcy process.
 20
      Changes in airline employment numbers do not include contract employees. Some positions cut from airline payrolls
      may be substituted with contractors (e.g., aircraft cleaning, maintenance, and baggage handling).
 21
      Full-time equivalent employees are calculated as full-time plus one half of part-time employees.


 Exhibit B. Airline Finances
                                                                                                                       24


to 536,000 (4.4 percent higher than 2009). Airlines that cut the most personnel
between 2008 and 2011 were United (-8,500), American (-7,200), and US
Airways (-2,300). However, some airlines added personnel during the same time
period, including Federal Express (+9,900), Southwest (+3,500), and JetBlue
(+2,000).

Airport and Airway Trust Fund. The Airport and Airway Trust Fund provides a
significant portion of FAA’s operating expenses as well as airport improvement
program grants for numerous airport construction projects. It is funded by excise
taxes on air travel, shipping, and fuels. 22 As seen in figure 17, Trust Fund revenues
were lower after 2008 due to reduced aviation activity and passenger ridership.
Meanwhile, FAA budget requests have continued to rise, increasing the amount of
the FAA budget funded by general fund appropriations. Government forecasts for
increased Trust Fund revenues in FY 2013 rely on an assumption that $863
million in proposed user fees for air traffic control services will be implemented. 23

                     Figure 17. Status of the Airport and Airway Trust Fund




     Source: Federal Aviation Administration and Office of Management and Budget




22
     FAA Trust Fund revenues are derived from excise taxes on: (1) domestic airline passenger tickets, (2) domestic
     airline passenger flight segments, (3) international passenger arrivals and departures, (4) air cargo waybills,
     (5) aviation fuels, and (6) amounts paid for the right to provide mileage awards.
23
     With the goal of sharing payments for air traffic services more equitably amongst aviation users, the FY 2013
     Presidential Budget proposes a new $100-per flight surcharge for air traffic services that would be deposited into the
     Airport and Airway Trust Fund.


Exhibit B. Airline Finances
                                                                                   25


EXHIBIT C. AIRLINE TRAFFIC AND CAPACITY
Air Traffic Demand.           Air          Figure 18. Passenger Enplanements
traffic demand has increased
slightly in recent years, as
evidenced by the number of
traveling passengers. As shown
in     figure    18,    passenger
enplanements on scheduled
flights       increased      only
1.3 percent from 2010 to 2011.
This      was      the     second
consecutive year of slow
recovery from a recent low in
2009–the second downturn in
the last 11 years. Nevertheless,
the 2011 ridership was still
5.1 percent below the record         Source: Bureau of Transportation Statistics

high       of     770     million
enplanements recorded in 2007.

Domestic         Traffic       and     Figure 19. Domestic Traffic and Capacity
Capacity. Domestic traffic and
capacity       have       increased
moderately since 2009 as
measured by domestic RPMs
and ASMs, respectively. As
illustrated in figure 19, RPMs
for 2011 increased 2.0 percent
over 2010 to 589.2 billion. This
continues a long-term moderate
growth trend that began in 2000,
with interruptions in 2001–2002
and 2008–2009. Meanwhile,
ASMs for 2011 grew 1.2 percent
over       the      prior      year
to 714.5 billion. The carriers’
ability to handle increased          Source: Bureau of Transportation Statistics
passenger traffic without a
corresponding increase in seat capacity resulted in a 12 point increase in load
factor (percentage of seats occupied) from 70.6 percent in 2000 to 82.5 percent in
2011.



Exhibit C. Airline Traffic and Capacity
                                                                                    26


Domestic and International             Figure 20. Domestic Versus International
Traffic. In contrast with the                     Passenger Traffic (in RPMs)
moderate growth in U.S.
domestic passenger traffic (i.e.,
domestic       RPMs       up     by
2.0 percent         in       2011),
international traffic to and from
the U.S. grew at a faster rate of
4.7 percent to 519 billion RPMs
in 2011 (see figure 20). The
higher      growth      rate     for
international traffic is a result of
the airlines’ emphasis on
expanding international service
to help compensate for a
sluggish domestic demand.
International traffic has also
recovered from a post 9/11
downturn. As a percentage of         Source: Bureau of Transportation Statistics

total traffic, international travel
comprised 48.6 percent of total travel in 2011, up from the recent low of
41.7 percent in 2003.

International           Passenger     Figure 21. International Passenger Traffic by
Growth By Region. The                               Region (in RPMs)
growth rate for international
traffic by regions has varied. As
figure 21 shows, the Atlantic
region,      largest     of     the
international       air     service
markets, saw the highest
growth rate in passenger traffic
(4.9 percent) in 2011 compared
to 2010. The Latin American
region          traffic       grew
4.8 percent over the same time
period. Passenger traffic in
the Pacific region grew by
4.3 percent in 2011, compared
to the prior year.

                                      Source: Bureau of Transportation Statistics




Exhibit C. Airline Traffic and Capacity
                                                                                27


Domestic and International Air Cargo. While traffic for domestic air cargo has
declined in recent years, the U.S. market for international cargo has remained
steady. Domestic air cargo traffic was 17 billion revenue ton-miles (RTMs) in
2011, a decline of 3.9 percent from 2010. This reduction continued a long-term
deterioration from the peak 2005–2007 period, which has been due to shippers
moving to less costly ground delivery methods during the periods of high aviation
fuel costs and economic recession.

In comparison, U.S. international air cargo for 2011 remained relatively
unchanged from 2010 at 40.2 billion RTMs, off only 0.2 percent for the year. The
2010–2011 period is a peak plateau in a generally rising trend in international air
cargo, marking a recovery from the 2008-2009 recessionary dip (see figure 22).

         Figure 22. Domestic and International Air Cargo Revenue
                            Ton-Miles (RTMs)




        Source: Bureau of Transportation Statistics




Exhibit C. Airline Traffic and Capacity
                                                                                                                     28


EXHIBIT D. SCHEDULED FLIGHT SERVICE
Change in Scheduled Flights. Since the peak in air travel in 2007, nearly all the
legacy airlines have cut back on their scheduled domestic flights. As shown in
figure 23, these decreases ranged from 14 percent for American to 18 percent for
Delta. 24 In contrast, low-cost carriers Allegiant, Spirit, Frontier, JetBlue, and
Southwest have increased their schedules. Low-cost carriers Sun Country and
AirTran were exceptions.
       Figure 23. Change in Scheduled Flights for Legacy and Low-Cost Carriers
                              June 2012 vs. June 2007




         Source: Federal Aviation Administration


Shift to Code Share Partners.                                Figure 24. Percent of Scheduled Flights
Over the past decade, the larger                                     by Code Share Partners
major airlines have been shifting a                                 June 2012 vs. June 2000
greater percentage of their scheduled
service to code share partners. As
shown in figure 24, between 2000
and 2012, United increased their use
of code share partners from
34 percent to 68 percent of their
scheduled domestic flights. This
shift reflects efforts to capture
connecting-passengers onto the
mainline flights and to reduce
operating expenses.
                                                            Source: Federal Aviation Administration

24
     In order to account for the airlines mergers during this time period, we combined United with Continental as well as
     Delta with Northwest.


Exhibit D. Scheduled Flight Service
                                                                                      29


Regional Differences in Domestic
                                                Figure 25. Regional Changes in
Service. While domestic air service
                                          Available Seats June 2012 vs. June 2007
has declined overall nationwide, this
decline has varied by region.
Nationwide, the number of scheduled
seats on domestic flights in June 2012
was 10 percent lower compared to
June 2007 levels. As seen in figure
25, seats declined most significantly
in the Midwest (-16 percent) and
Northeast (-12 percent) while less so
in the West (-9 percent) and South
(-6 percent). The downturn in
the Midwest can be mostly attributed
to the declines at Cincinnati
                                           Source: Federal Aviation Administration
(-60 percent), Cleveland (-22 percent),
and Chicago O’Hare (-13 percent). In the Northeast, there were declines at smaller
airports,     such     as      Syracuse      (-16          percent)             and Albany
(-16 percent), as well as at some of the larger airports, including Pittsburgh
(-28 percent) and Philadelphia (-13 percent).

Loss of Short-Haul Air Service. Short-haul air service in particular has
experienced a significant decline in recent years. Figure 26 shows that in June
2012, the number of scheduled domestic flights was down 24 percent for the
shortest flights (i.e., 0 to 249 miles) and 16 percent for flights between 250 and
499 miles. In contrast, scheduled flights for longer distances of 2,500 miles or
greater have increased 7 percent. Legacy carriers have dropped the most short-haul
flights, with a reduction of 1.6 million seats, compared with a drop of 400,000
seats by regional and other smaller carriers, and 300,000 by low-cost carriers (see
figure 27).
   Figure 26. Percent Change in               Figure 27. Available Seats on Short-
Scheduled Flights by Flight Distance,         Haul Flights by Type of Air Carrier,
 June 2012 vs. June 2007 (in Miles)                June 2012 vs. June 2007




Source: Federal Aviation Administration    Source: Federal Aviation Administration


Exhibit D. Scheduled Flight Service
                                                                                 30


Scheduled Flights at Large                Figure 28. Change in Scheduled Flights at
Airports. Nearly all of the large          Major Airports, June 2012 vs. June 2007
airports     have        experienced
decreases in scheduled flights. As
illustrated in figure 28, when
comparing June 2012 to June
2007, the number of scheduled
flights decreased at 30 of the
35 largest     airports.    Overall,
scheduled flights dropped an
average of 9.4 percent at these
35 airports. The most significant
decreases were experienced at
Cincinnati          (-63.1 percent),
Pittsburgh (-40.1 percent), and
Memphis (-35.5 percent). These
particular airports were impacted
by the downsizing of hub
operations following mergers and
bankruptcy reorganizations.

During the same period, airports
such as San Francisco (23.9
percent) and Charlotte (11.1
percent) gained scheduled flights.
Meanwhile, Southwest and Virgin
America initiated operations at
San Francisco, while US Airways
ramped-up their hub operations at
Charlotte.



                                       Source: Federal Aviation Administration




Exhibit D. Scheduled Flight Service
                                                                                                     31


Impact of Airline Cutbacks on             Figure 29. Change in Scheduled Domestic
Aircraft Usage. Cutbacks in                              Flights by Aircraft Size
scheduled domestic air service were                     June 2012 vs. June 2007
also reflected in the reduced use of
aircraft typically operated by
regional airlines. As shown in figure
29, when comparing June 2012 to
June 2007, monthly flights for
propeller driven aircraft dropped by
50,000, while Regional Jet (RJ)
aircraft with 30 to 70 seats
decreased by 55,000. Together,
these two categories represent a
flight decrease of 25 percent for
regional type aircraft. This decrease
was partially offset by an increase in
RJs with 71 to 100 seats from
25,000 to 58,000 flights, suggesting      Source: Federal Aviation Administration

a shift to larger aircraft by the
regional airlines. This shift in aircraft usage is also evident in other categories
where medium-sized jets (101 to 170 seats) experienced a decline from 348,000 to
306,000, while larger jets (171 to 250 seats) had a slight increase of around 1,000
flights. Finally, the number of flights for the largest sized aircraft (251 to 400
seats) dropped from roughly 9,000 to 5,000.

Changes in Domestic Competition. The cutback in service to airports in the
contiguous 48 States and Hawaii is reflected by the change in domestic
competition. Since 2007, overall competition as measured by the number of
airlines serving an airport has declined substantially. As shown in table 3, 61 out
of the Nation’s 457 airports receiving scheduled air service lost one half or more
of the air carriers serving their community.

                        Table 3. Change in Domestic Competition,
                                 June 2012 vs. June 2007
 Percent Change in Carriers                                               Average Change in No. of
                                           Airports in Group
      Serving Airport                                                             Carriers
    100% (Lost all carriers)                      21                                -1.1
          75% - 99%                                2                                -3.0
          50% - 74%                               38                                -1.8
          25% - 49%                               85                                -2.3
           1% - 24%                               46                                -1.5
     0% (Lost no carriers)                        209                                0.0
      Increase in carriers                        56                                 1.1
             Total                                457

Source: Federal Aviation Administration
Note: Excludes the State of Alaska and U.S. Possessions and Territories

Exhibit D. Scheduled Flight Service
                                                                                                                   32


Changes in Air Service by                               Figure 30. Change in Scheduled Departures
Airport Size. Following the                                        by Size of Community
economic downturn in 2008, air                                   June 2012 vs. June 2007
carriers reduced their schedules
most notably at the smaller sized
airports. As shown in figure 30,
when comparing June 2012 to
June 2007, large hub airports saw
an 8 percent drop in scheduled
departures while all other airport
size    groupings     experienced
greater decreases, medium (-22
percent), small (-18 percent) and
non-hub (-22 percent). 25


                                                       Source: Federal Aviation Administration



Regional Impact of Cutbacks to                            Figure 31. Regional Changes in Available
Smaller      Communities.      A                                 Seats at Non-Hub Airports,
comparison of available seat                                      June 2012 vs. June 2007
capacity at the non-hub airports
by regions shows the greatest
cutback occurred in the Northeast
at -19 percent. As shown by
figure 31, the Midwest and West
experienced a smaller decline,
while the South had a slight
increase of 1 percent. Airport
declines that impacted the
Northeast included Newburgh,
NY (-65 percent), Binghamton,
NY (-32 percent), and State
College, PA (-19 percent).
                                                       Source: Federal Aviation Administration




25
     FAA categorizes airport sizes based on the percentage of annual passenger enplanements. A large hub represents
     1 percent or more of total enplanements while a medium has at least .25 percent, but less than 1 percent. Airports
     with .05 percent to .25 percent of the total enplanements are categorized as small and any airports less than
     .05 percent, but with at least 2,500 enplanements are considered non-hubs.


Exhibit D. Scheduled Flight Service
                                                                                                                33


Essential Air Service. Recent legislative actions have the potential to
significantly impact service to smaller communities. The FAA Modernization and
Reform Act of 2012 26 made considerable changes to the Essential Air Service
(EAS) program, which provided guarantees of at least minimal levels of passenger
service to most communities. The Act introduced new limits to the program by
restricting eligibility and appropriations. Eligibility for communities in the lower
48 States to participate in the program is now restricted to only those that received
subsidized service between September 30, 2010, and September 30, 2011 27 (no
new communities in the lower 48 states are eligible for subsidy). 28 Further, except
at the limited number of subsidized communities, airlines are no longer required to
provide advanced notice of their intention to terminate service.

As shown in figure 32, program appropriations will be steadily reduced from
$195 million in FY 2011 to $93 million in FY 2015. Prior to these legislative
changes, EAS subsidies increased from $50 million for 115 communities in
FY 2001 to $195 million for 162 communities in FY 2011, caused in part by
higher fuel costs and lower ridership. The impact of the planned reduction in
appropriations on the number of communities that can be funded in the future is
unknown.
                    Figure 32. Essential Air Service Funding and Number of
                                   Subsidized Communities




     Source: DOT Office of Aviation Analysis


26
     FAA Modernization and Reform Act, February 14, 2012.
27
     In addition to the communities currently receiving subsidized service, eight communities whose subsidy
     eligibility was being processed during this time are eligible.
28
     Communities in Alaska or Hawaii are exempt from this limitation as well as several additional minimum ridership
     and maximum per-passenger subsidy requirements.


Exhibit D. Scheduled Flight Service
                                                                                                34


     EXHIBIT E. DELAYS AND CANCELLATIONS
     Actual Total Flight Operations. Since 2007, total instrument controlled (IFR)
     aircraft operations handled by both FAA’s En Route Centers and Towers have
     decreased significantly (see figures 33 and 34). In particular, flight activity
     involving general aviation activity has had the sharpest decline at over 23 percent
     since 2007. Furthermore, the number of operations (which can include take-offs,
     landings, or en route flights) remains at levels below the post 9/11 low
     experienced in 2003.

 Figure 33. Number of En Route Center                      Figure 34. Number of Tower Flight
           Flight Operations                                           Operations




Source: Federal Aviation Administration               Source: Federal Aviation Administration



     Actual Arrivals. Likewise, the           Figure 35. Percent Change in the Number of
     actual number of flights                   Arrivals at Major Airports, 2011 vs. 2007
     arriving at the 55 major airports
     tracked by FAA has dropped
     since 2007. As shown in figure
     35, when comparing 2011 with
     2007, there was a percentage
     decline in the number of
     arriving flights in every single
     month. The summer vacation
     months of June and July 2011
     showed less decline than other
     months of the year.


                                          Source: Federal Aviation Administration




     Exhibit E. Delays and Cancellations
                                                                                                       35


 Number and Rate of Arrival Delays. As shown in figures 36 and 37, following
 the 9/11 downturn, 2002 marked the lowest number of delays as well as the lowest
 rate (percentage of flights delayed). In contrast, 2007 experienced both the highest
 number and rate of arrival delays, particularly during the summer months. Since
 2007, the number and rate of delays have remained lower, although generally
 above the 2002 levels for most of the year.
      Figure 36. Delayed Flights at Major                  Figure 37. Rate of Delayed Flights at
       Airports, 2011 vs. 2007 and 2002                   Major Airports, 2011 vs. 2007 and 2002




Source: Federal Aviation Administration                   Source: Federal Aviation Administration




 Length of Delays. While the number                      Figure 38. Length of Flight Delays at
 and rate of delays has declined since                   Major Airports, 2011 vs. 2007 and 2002
 2007, the average duration of these
 delays 29 remains high (see figure 38).
 In fact, the average length of arrival
 delay in 2011 was approximately the
 same each month as in the comparable
 month of 2007. Further, the longest
 average delay time occurred during
 the summer months in each of those
 years. On an annual basis, the average
 length of arrival delay in 2011 was
 55 minutes, only slightly below the
 55½ minutes experienced in 2007. In
 contrast, the length of delays in 2002
                                                        Source: Federal Aviation Administration
 averaged only 46 minutes during the
 year.

 29
      The average length of arrival delay only includes those flights that did not arrive (gate-in) within
      15 minutes of the scheduled arrival time.


 Exhibit E. Delays and Cancellations
                                                                                                             36


Tarmac Delays. The number of                         Figure 39. Number of Flights With Tarmac
tarmac delays of longer than                              Delays of Longer Than 3 Hours
3 hours has dramatically declined
since their peak in 2007, as shown
in figure 39. This decline may be
attributable to both the drop in
scheduled      flights    and   the
implementation of a recent DOT
rule addressing long tarmac
delays. 30 Between 2007 and 2011,
tarmac delays of more than
3 hours dropped from 1,642 to
only 50 (nearly 97 percent) and
are now at incomparably low
levels for the last 12 years.
                                                      Source: Bureau of Transportation Statistics


Cancellations. Following the                          Figure 40. Flight Cancellations at Major
aftermath of the 9/11 terrorist                          Airports, 2011 vs. 2007 and 2002
attacks,    flight    cancellations
reached their lowest point in 2002
(see figure 40). By 2007, the
number of cancellations had
climbed to record high levels. In
2011 the number of cancellations
had dropped, although still
remaining above 2002 levels for
most of the year. The large spike
in August 2011 resulted from
airlines cancelling large numbers
of flights at airports in the
Northeast United States due to
Hurricane Irene.
                                                      Source: Federal Aviation Administration




30
     DOT issued a new rule effective April 29, 2010 “Enhancing Airline Passenger Protections” that requires
     certain U.S. carriers to provide assurance that they will not permit an aircraft to remain on the tarmac for
     more than 3 hours without providing passengers an opportunity to deplane. An air carrier’s failure to
     comply with this assurance subjects the carrier to civil penalties of up to $27,500 per passenger.


Exhibit E. Delays and Cancellations
                                                                                                    37


Delays at Specific Airports. The                       Figure 41. Rate of Delayed Flights at
three New York area airports are                               Congested Airports,
among the airports experiencing the                              4th Quarter 2011
most delays (see figure 41). During
the fourth quarter of 2011, Newark
had the highest delay rate at over
31 percent of all arriving flights,
while LaGuardia and J.F. Kennedy
experienced delay rates of 22 and
21 percent, respectively. Other
airports with high delay rates
include San Francisco, Philadelphia,
and Washington Dulles. All of these
airports have delay rates well above
the national average of 18 percent.

When comparing the number of            Source: Federal Aviation Administration
delays that occurred during the
summer of 2011 with the summer of
2007 (see figure 42), only San Figure 42. Percent Change in Number of
Francisco had an increase in delays. Delays at Three Best and Worst Airports,
San Francisco was one of only a few             Summer 2011 vs. Summer 2007
airports that experienced an increase
in scheduled flights between the two
time periods, as Southwest and
Virgin America began operations at
the airport, adding 164 flights daily.
In contrast, other major airports,
such as Cincinnati, Dallas-Ft.
Worth, Seattle, Newark, 31 and
Charlotte, experienced substantial
reductions in delayed flights. Delays
improved at Cincinnati mainly
because scheduled traffic decreased
nearly 56 percent during this same      Source: Federal Aviation Administration
time period. Seattle opened an
additional runway in November 2008, thus improving capacity. Dallas-Ft. Worth
had severe weather issues during the summer of 2007 compared to 2011.




31
     Although the number of delays dropped at Newark, it still remained the most delayed airport in the
     Nation in the latter part of 2011.


Exhibit E. Delays and Cancellations
                                                                                                                            38


   Causes of Flight Delays. DOT analyzes data reported by airlines and summarizes
   the causes of arrival delays into categories such as carrier caused, weather, late
   arriving aircraft, 32 Air Traffic Control (ATC) volume, runway closure, and other
   miscellaneous causes, including security and ATC equipment outages. As shown
   in figure 43, the top reason for delays reported by airlines was late-arriving
   aircraft, followed by carrier-caused delays (which can include maintenance or
   crew availability problems, aircraft cleaning, baggage loading, and fueling). Since
   late arriving aircraft is a secondary cause, figure 44 shows the primary causes by
   proportionally allocating late arriving aircraft delays. Once adjusted, the carrier-
   caused delays rise from 27 percent to 44 percent, becoming the largest cause of
   arrival delays.

  Figure 43. Airline Reported Causes of                                     Figure 44. Causes of Flight Delays -
              Flight Delays,                                                Adjusted for Late Arriving Aircraft,
              Summer 2011                                                              Summer 2011




Source: Federal Aviation Administration                                 Source: Federal Aviation Administration




   32
        “Late arriving aircraft” is a secondary cause of delay; the primary cause of delay is what caused the aircraft to arrive
        late. Delays are categorized as “late arriving aircraft” when the previous fight operated with the same aircraft arrives
        late, resulting in the current flight departing late.


   Exhibit E. Delays and Cancellations
                                                                                                                      39


EXHIBIT F. CUSTOMER SERVICE
Passengers Denied Boarding.         Figure 45. Number of Passengers Denied
As shown in figure 45, the              Boarding vs. Enplaned Passengers
overall number of passengers
denied     boarding 33     (i.e.,
“bumped”) by airlines has
declined in the last decade
since its peak in 2000, with
some fluctuation tied to
passenger             ridership.
Passenger-denied boardings,
as defined by DOT, are
“passengers      who       hold
confirmed reservations and are
denied boarding from a flight
because it is oversold.” 34
Between 2000 and 2005,
passenger-denied     boardings       Sources: Bureau of Transportation Statistics and DOT Aviation
declined from 1.12 million in        Consumer Protection Division
2000 to a low of 597,000 in
2005. After 2005, denied boardings increased as ridership grew until 2011, when
denied boardings dropped 16 percent from the prior year to 626,000. Despite the
large fluctuation in the overall number of denied boardings, the number of
involuntary passenger-denied boardings (as opposed to voluntary, when a
passenger willingly gives up his or her seat on an oversold flight in exchange for
compensation) remained relatively unchanged over the last decade, with a low of
34,000 in 2002 and high of 67,000 in 2009.

Rate of Denied Boardings. Regional carriers were more likely to have higher
rates of passenger-denied boardings, as illustrated in figure 46. In 2011, passenger-
denied boarding rates for individual airlines varied from 0 (JetBlue) to 27.3
(Atlantic Southeast) for every 10,000 passengers enplaned, and the industry rate of
denied boardings was 10.57. 35 While nearly all major carriers except United and
AirTran beat the industry average, most regional carriers did not.



33
     Reports of mishandled baggage and passengers denied boarding are filed with DOT (monthly and quarterly,
     respectively) by U.S. airlines that have at least one percent of total domestic scheduled-service passenger revenues,
     plus any other airline that voluntarily submits the data.
34
     Per DOT, “these figures include only passengers whose oversold flight departs without them; they do not include
     passengers affected by cancelled, delayed, or diverted flights. See Scope & Methodology for further information.
35
     Based only on the number of passengers denied boarding and passengers enplaned by airlines required to submit
     denied boarding reports to the Department of Transportation.


Exhibit F. Customer Service
                                                                                                                       40


              Figure 46. Rate of Passengers Denied Boarding by Airline, 2011




      Sources: Bureau of Transportation Statistics and DOT Aviation Consumer Protection Division



Reports of Mishandled                                Figure 47. Number of Mishandled Bag Reports vs.
Baggage. The number of                                            Enplaned Passengers
reports     of     mishandled
baggage has declined since its
peak in 2007, when reports
peaked at 4.4 million, which
coincided with the peak in
passenger ridership. 36 As
shown in figure 47, from 2007
to     2009,     reports     of
mishandled baggage declined
in general proportion to the
reduction in airline ridership.
Since      2009,      although
ridership has been increasing,
mishandled bag reports have
continued to decline (to
1.9 million) in 2011. This
                                                         Sources: Bureau of Transportation Statistics and DOT Aviation Consumer
continued      decline       in                          Protection Division
mishandled     bag      reports

36
     This customer service metric is based on the number of reports of mishandled baggage on domestic flights and may
     include one or more pieces of baggage.


Exhibit F. Customer Service
                                                                                                                         41


corresponds with airline implementation of checked baggage fees and passengers
checking fewer bags.

Rate of Mishandled Baggage Reports. Figure 48 shows that regional carriers
were also more likely to have higher rates of mishandled baggage reports. In 2011,
the average number of mishandled bag reports per 1,000 passengers for domestic
air travel was 3.39. Major airlines reported rates of mishandled baggage below or
only slightly above the industry average. Alone, the major airlines’ rate of
mishandled baggage was 3.08 per 1,000 passengers. In contrast, regional carriers
such as SkyWest, ExpressJet, Mesa, Atlantic Southeast, and American Eagle
reported mishandled baggage rates well above the average. Together, the regional
airlines experienced a rate of 5.27 mishandled bag reports per 1,000 passengers.
             Figure 48. Rate of Mishandled Bag Reports by Airline, 2011




    Sources: Bureau of Transportation Statistics and DOT Aviation Consumer Protection Division



Passenger Complaints to DOT. As                                    Figure 49. Number of Passenger
shown by figure 49, the number of                                 Complaints vs. Enplaned Passengers
complaints made by airline passengers
to DOT has generally risen and fallen
with the changes in passenger
ridership. Between 2000 and 2003,
however, a dramatic reduction (-77%)
in passenger complaints filed with the
DOT occurred despite only gradually
declining ridership (-4%). After 2003,
complaints increased from a low of
4,000 in 2003 to 7,500 in 2011 while
ridership peaked, dropped, and
returned.

                                                                 Sources: Bureau of Transportation Statistics and DOT Aviation
                                                                 Consumer Protection Division
Exhibit F. Customer Service
                                                                             42


Rate of Passenger Complaints to DOT. The number of passenger complaints
filed with DOT is extremely low when compared to airline ridership. In 2011, the
industry average of passenger complaints per 100,000 passenger enplanements
was 1.18. As shown in figure 50, even the airline with the highest rate of
complaints among reporting airlines, received less than 3 complaints for every
100,000 passengers transported.

             Figure 50. Rate of Passenger Complaints by Airline, 2011




      Source: Department of Transportation



Types of Airline Passenger Complaints to DOT. Passengers filed the most
complaints with DOT regarding flight problems (e.g., delays, cancellations, and
other disruptions), as illustrated in figure 51.
              Figure 51. Types of Passenger Complaints Reported, 2011




                  Source: Department of Transportation

Exhibit F. Customer Service
                                                                              43


For 2011, complaints with flight problems comprised 32 percent of all
submissions, with twice as many complaints as the next largest category, baggage.
Together, these two categories account for nearly half of all complaints.




Exhibit F. Customer Service
                                                                                      44


EXHIBIT G. GLOSSARY OF COMMONLY USED TERMS
Available Seat Miles (ASMs) – One seat transported one mile; the most common
measure of airline seating capacity.

Actual Load Factor – The percentage of available seats that are filled with paying
passengers. Load factor is computed as the ratio of Revenue Passenger Miles to
Available Seat Miles.

Code-Sharing – A common airline industry marketing practice where, by
agreement between cooperating carriers, the advertised identity of at least one
airline used on a flight is different from that of the airline operating the aircraft. In
one version, two or more airlines each use their own identities on the same aircraft
operation. Although only one airline operates the flight, each airline in a code-
sharing arrangement may hold out, market, and sell the flight as its own in
published schedules. Code-sharing also refers to the arrangements, such as when
the airline identity on a passenger's ticket is not that of the operator of the flight,
but where the operator does not also hold out the service in its own name. Such
code-sharing

Cost per Available Seat Mile (CASM) – A measure of unit cost, calculated by
dividing operating costs by available seat miles.

Enplanements – The number of passengers boarding a flight.

En Route Center – Sometimes referred to as a “center,” or an Air Route Traffic
Control Center, it houses the air traffic controllers and equipment needed to
identify and direct aircraft during the en route—as opposed to the approach and
departure—portion of their flights.

Essential Air Service – Government-subsidized airline service to eligible small
communities, which began after the Airline Deregulation Act of 1978.

General Aviation – A term used to describe all non-military and non-airline flying,
encompassing everything from recreational aircraft to experimental aircraft to
privately owned and operated business jets.

Hub Airport – A ranking designation assigned to U.S. airports by FAA based on
an airport’s percentage share of total passenger enplanements at all U.S. airports.
FAA categorizes airports based on the following percentage of annual passenger
enplanements in the United States by hub type.

       • Large-Hub:          1.0 percent or more of total enplanements
       • Medium-Hub:         at least 0.25 percent, but less than 1 percent


Exhibit G. Glossary of Commonly Used Terms
                                                                                  45


       • Small-Hub:         at least 0.05 percent, but less than 0.25 percent
       • Non-Hub:           at least 2,500, but less than 0.05 percent.

Instrument Flight Rules – Rules governing flight relying on the aircraft’s
instruments and navigation aids. IFR permit aircraft to fly in certain limited
visibility and cloud conditions. Virtually any commercial operation—including
airlines and business jets—utilizes the IFR system.

Jet Fuel – The term describes kerosene-type jet fuel used primarily for commercial
turbojet and turboprop aircraft engines.

Large Jet – For the purposes of the Aviation Industry Performance report, large
jets are all commercially operated jet transport aircraft other than those defined as
regional jets.

Legacy Airline – For the purposes of this report, the category legacy airline
includes Alaska Airlines, American Airlines, Delta Air Lines, United Airlines, and
US Airways. For the purposes of consistency over time, we combined the financial
and operating statistics for the various airlines that have been merged, including:
America West (US Airways), Continental (United), Northwest (Delta), and Trans
World Airlines (American).

Low-Cost Carrier – For the purposes of the Aviation Industry Performance report,
the category low-cost carrier includes AirTran Airways, America West, American
Trans Air (ATA), Frontier Airlines, JetBlue Airways, National Airlines, Pan
American Airways, Southwest Airlines, Spirit Airlines, Sun Country, and
Vanguard Airlines. However, Vanguard Airlines and National Airlines ceased
operations in July 2002 and November 2002, respectively. ATA ceased operations
in April 2008 and Pan American ceased operations in 1998. America West airlines
merged with US Airways in September 2007.

Major Airline – For the purposes of this report, the category major airline includes
AirTran Airways, Alaska Airlines, American Airlines, American Eagle Airlines,
Continental Airlines, Delta Air Lines, Frontier Airlines, Hawaiian Airlines,
JetBlue, SkyWest, Southwest Airlines, United Airlines, and US Airways. For the
purposes of consistency over time, we combined the financial and operating
statistics for the various airlines that have been merged, including: America West
(US Airways), Continental (United), Northwest (Delta), and Trans World Airlines
(American

Mishandled Bags – The number of reports each carrier received from passengers
concerning lost, damaged, delayed or pilfered baggage.




Exhibit G. Glossary of Commonly Used Terms
                                                                                 46


Other Airlines – Except where noted, for the purposes of Aviation Industry
Performance report, the category other airlines includes all scheduled U.S. airlines
not included in the network and low-cost categories, that is, mostly smaller
scheduled regional, commuter, and national airlines (many of which are affiliated
with the major network carriers).

Passengers Denied Boarding – The number and rate of involuntary denied
boardings include both passengers who received denied boarding compensation
and passengers who did not qualify for compensation because of one of the
exceptions in the oversales rule. There are four exceptions: (1) passenger
accommodated on another flight scheduled to arrive within one hour of the
original flight; (2) passenger fails to comply with ticketing, check-in or
reconfirmation procedures; (3) aircraft of smaller capacity is substituted; and
(4) passenger is denied boarding due to safety-related weight restrictions on an
aircraft with 60 or fewer seats.

Regional Carrier – An airline with a fleet principally comprised of aircraft
configured with fewer than 100 seats, operating within a limited geographic scope
(may have multiple regions, though not interlinked across the country under its
own single brand), principally serving hub-and-spoke networks, and conducting
most of its operations under the affiliation(s) of larger branded airlines (network
carriers). For the purposes of this report, we also consider internal mainline
operating units that are principally involved in regional operations as regional
carriers.

Regional Jet (RJ) – All turbofan jet-powered aircraft configured to seat 77 or
fewer passengers, operated by either a regional or network carrier, and all turbofan
jet-powered aircraft configured to seat between 78 and 100 passengers and
operated by regional carriers.

Regions – For purposes of this report, the Nation was delineated into four regions
composed of states and the District of Columbia. Northeast Region: Maine, New
Hampshire, Vermont, Massachusetts, Rhode Island, Connecticut, New York, New
Jersey, and Pennsylvania. Midwest Region: Ohio, Indiana, Illinois, Michigan,
Wisconsin, Minnesota, Iowa, Missouri, North Dakota, South Dakota, Nebraska,
and Kansas. South Region: Delaware, Maryland, Virginia, West Virginia, North
Carolina, South Carolina, Georgia, Florida, Kentucky, Tennessee, Alabama,
Mississippi, Arkansas, Louisiana, Oklahoma, Texas, and District of Columbia.
West Region: Montana, Idaho, Wyoming, Colorado, New Mexico, Arizona, Utah,
Nevada, Washington, Oregon, California, Alaska, and Hawaii.

Revenue Passenger Mile (RPM) – One fare-paying passenger transported one
mile; the most common measure of demand for air travel.



Exhibit G. Glossary of Commonly Used Terms
                                                                                   47


Revenue Ton Miles – One ton of cargo transported one mile.

Tarmac Delay – A delay that an aircraft experienced in any of the following stages
of operation: (1) taxi-out from the gate to wheels-off; (2) taxi-in from wheels-on to
the gate; (3) prior to cancellation where the aircraft left the gate and returned upon
cancellation; (4) multiple gate departures where the aircraft left the gate and then
returned to the gate before departing again; and (5) at diversion airport is the
tarmac time that occurred at an alternate airport.

Tower – Also referred to as control tower, is located at the airport and generally
handles at and in close proximity of the airport.




Exhibit G. Glossary of Commonly Used Terms
                                                                     48


EXHIBIT H. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                 Title

Darren Murphy                        Program Director

Charles Ward                         Project Manager

Stephen Smith                        Senior Transportation Analyst

Michael Dunn                         Auditor

Audre Azuolas                        Writer-Editor




Exhibit H. Major Contributors to This Report
The following pages contain textual versions of the graphs and charts contained in this
document. These pages were not a part of the original document but have been added
here to accommodate assistive technology.

Figure 1: Jet Fuel Prices – U.S Gulf Coast Spot Price (June 2000 – June 2012)
                   Month                      Monthly Jet Fuel Price ($/Gallon)
 June 2005                                                  $1.65
 July 2005                                                  $1.66
 August 2005                                                $1.87
 September 2005                                             $ 2.23
 October 2005                                               $2.40
 November 2005                                              $1.70
 December 2005                                              $1.73
 January 2006                                               $1.82
 February 2006                                              $1.75
 March 2006                                                 $1.87
 April 2006                                                 $2.07
 May 2006                                                   $2.07
 June 2006                                                  $2.08
 July 2006                                                  $2.15
 August 2006                                                $2.13
 September 2006                                             $1.81
 October 2006                                               $1.74
 November 2006                                              $1.73
 December 2006                                              $1.81
 January 2007                                               $1.65
 February 2007                                              $1.74
 March 2007                                                 $1.85
 April 2007                                                 $2.04
 May 2007                                                   $2.04
 June 2007                                                  $2.10
 July 2007                                                  $2.14
 August 2007                                                $2.09
 September 2007                                             $2.27
 October 2007                                               $2.37
 November 2007                                              $2.67
 December 2007                                              $2.60
 January 2008                                               $2.60
 February 2008                                              $2.73
 March 2008                                                 $3.12
 April 2008                                                 $3.36
 May 2008                                                   $3.74
                 Month   Monthly Jet Fuel Price ($/Gallon)
June 2008                             $3.88
July 2008                             $3.89
August 2008                           $3.27
September 2008                        $3.37
October 2008                          $2.31
November 2008                         $1.88
December 2008                         $1.38
January 2009                          $1.47
February 2009                         $1.26
March 2009                            $1.27
April 2009                            $1.37
May 2009                              $1.49
June 2009                             $1.81
July 2009                             $1.71
August 2009                           $1.89
September 2009                        $1.75
October 2009                          $1.94
November 2009                         $1.99
December 2009                         $1.98
January 2010                          $2.05
February 2010                         $1.99
March 2010                            $2.11
April 2010                            $2.24
May 2010                              $2.06
June 2010                             $2.06
July 2010                             $2.02
August 2010                           $2.08
September 2010                        $2.11
October 2010                          $2.25
November 2010                         $2.32
December 2010                         $2.45
January 2011                          $2.62
February 2011                         $2.84
March 2011                            $3.13
April 2011                            $3.27
May 2011                              $3.09
June 2011                             $3.05
July 2011                             $3.13
August 2011                           $3.01
September 2011                        $2.95
October 2011                          $2.97
                 Month                      Monthly Jet Fuel Price ($/Gallon)
 November 2011                                           $3.05
 December 2011                                           $2.87
 January 2012                                            $3.09
 February 2012                                           $3.21
 March 2012                                              $3.26
 April 2012                                              $3.23
 May 2012                                                $2.97
 June 2012                                               $2.68
Source: Energy Information Administration

Figure 2: CASM-Cost per Available Seat-Mile With and Without Fuel

    Quarter and Year          Total Operating          Total Operating
                               Expense Less             Expense Less
                          Transport-related and       Transport-related
                          Fuel Expense in Cents     Expense in Cents per
                          per Available Seat-Mile    Available Seat-Mile
First Quarter 2000                  8.55                     9.86
Second Quarter 2000                 8.60                     9.92
Third Quarter 2000                  8.61                    10.09
Fourth Quarter 2000                 8.93                    10.55
First Quarter 2001                  9.19                    10.72
Second Quarter 2001                 9.16                    10.61
Third Quarter 2001                  9.51                    10.91
Fourth Quarter 2001                 9.82                    10.97
First Quarter 2002                  9.36                    10.43
Second Quarter 2002                 8.97                    10.15
Third Quarter 2002                  8.73                     9.99
Fourth Quarter 2002                 8.85                    10.18
First Quarter 2003                  9.05                    10.55
Second Quarter 2003                 8.66                     9.97
Third Quarter 2003                  8.12                     9.45
Fourth Quarter 2003                 8.47                     9.86
First Quarter 2004                  8.31                     9.88
Second Quarter 2004                 8.03                     9.75
Third Quarter 2004                  7.80                     9.68
Fourth Quarter 2004                 8.17                    10.31
First Quarter 2005                  7.94                    10.10
Second Quarter 2005                 7.50                     9.94
Third Quarter 2005                  7.54                    10.28
Fourth Quarter 2005                 7.86                    10.83
    Quarter and Year            Total Operating          Total Operating
                                 Expense Less             Expense Less
                             Transport-related and      Transport-related
                             Fuel Expense in Cents    Expense in Cents per
                            per Available Seat-Mile    Available Seat-Mile
 First Quarter 2006                   7.95                    10.78
 Second Quarter 2006                  7.63                    10.74
 Third Quarter 2006                   7.47                    10.72
 Fourth Quarter 2006                  7.74                    10.65
 First Quarter 2007                   7.80                    10.58
 Second Quarter 2007                  7.74                    10.83
 Third Quarter 2007                   7.67                    10.92
 Fourth Quarter 2007                  7.86                    11.51
 First Quarter 2008                   8.09                    12.17
 Second Quarter 2008                  8.57                    13.28
 Third Quarter 2008                   8.08                    13.54
 Fourth Quarter 2008                  8.41                    12.73
 First Quarter 2009                   8.63                    11.45
 Second Quarter 2009                  8.34                    11.09
 Third Quarter 2009                   8.27                    11.36
 Fourth Quarter 2009                  9.09                    12.21
 First Quarter 2010                   8.92                    12.21
 Second Quarter 2010                  8.38                    11.87
 Third Quarter 2010                   8.24                    11.57
 Fourth Quarter 2010                  8.87                    12.41
 First Quarter 2011                   8.96                    13.05
 Second Quarter 2011                  8.64                    13.23
 Third Quarter 2011                   8.56                    13.13
 Fourth Quarter 2011                  9.53                    13.91
NOTES: In first quarter 2002 Fuel represented 10 percent of total transport costs. In
third quarter 2008 fuel represented 40 percent of transport costs.

Figure 3: Per Capita Disposable Income (Inflation Adjusted to 2000)

Year                    Per Capita
                        Disposable
                          Income
2000                     $25,946
2001                     $26,314
2002                     $26,928
2003                     $27,353
2004                     $28,033
Year                 Per Capita
                     Disposable
                       Income
2005                  $28,152
2006                  $29,014
2007                  $29,415
2008                  $29,845
2009                  $28,891
2010                  $29,173
2011                  $29,341
SOURCE: Bureau of Economic Affairs

Figure 4: Accumulated Net Losses and Gains
First Quarter 2001 Cumulatively through Fourth Quarter 2011
(DOT Data)

Quarter Year            Network     Low-Cost
                        Carriers     Carriers
                       Cumulative Cumulative Sum
                           Sum      Dollars in
                        Dollars in   Billions
                         Billions
First Quarter 2001          -$1       $0.1
Second Quarter 2001        -$1.8      $0.2
Third Quarter 2001         -$4.2      $0.3
Fourth Quarter 2001        -$7.4      $0.2
First Quarter 2002        -$10.4      -$0.2
Second Quarter 2002       -$11.9      -$0.2
Third Quarter 2002        -$14.5      -$0.2
Fourth Quarter 2002       -$18.5      -$0.3
First Quarter 2003        -$20.4      -$0.3
Second Quarter 2003       -$20.7      $0.2
Third Quarter 2003        -$21.2      $0.3
Fourth Quarter 2003       -$21.8      $0.4
First Quarter 2004        -$23.4      $0.4
Second Quarter 2004       -$25.8      $0.5
Third Quarter 2004        -$27.2      $0.5
Fourth Quarter 2004       -$29.7      -$0.1
First Quarter 2005        -$32.8      -$0.3
Second Quarter 2005       -$34.8      -$0.2
Third Quarter 2005        -$37.5      -$0.2
Fourth Quarter 2005       -$57.6      -$0.5
Quarter Year                Network     Low-Cost
                            Carriers     Carriers
                           Cumulative Cumulative Sum
                               Sum      Dollars in
                            Dollars in   Billions
                             Billions
First Quarter 2006            -$38.5      $1.0
Second Quarter 2006           -$40.0      $1.4
Third Quarter 2006            -$40.7      $1.3
Fourth Quarter 2006           -$42.9      $1.2
First Quarter 2007            -$43.3      $1.3
Second Quarter 2007           -$38.0      $1.6
Third Quarter 2007            -$36.5      $1.8
Fourth Quarter 2007           -$36.9      $1.9
First Quarter 2008            -$48.7      $1.9
Second Quarter 2008           -$53.5      $2.1
Third Quarter 2008            -$56.2      $1.8
Fourth Quarter 2008           -$59.4      $1.6
First Quarter 2009            -$60.9      $1.4
Second Quarter 2009           -$61.7      $1.6
Third Quarter 2009            -$62.2      $1.9
Fourth Quarter 2009           -$62.8      $2.1
First Quarter 2010            -$63.8      $2.1
Second Quarter 2010           -$62.4      $2.2
Third Quarter 2010            -$60.8      $2.6
Fourth Quarter 2010           -$61.0      $2.7
First Quarter 2011            -$61.9      $2.7
Second Quarter 2011           -$61.3      $2.8
Third Quarter 2011            -$60.0      $2.8
Fourth Quarter 2011           -$60.7      $2.9

Figure5: The Accelerating Consolidation of the U. S. Airline Industry. Percent Share
of Domestic Available Seat-Miles
 Airline 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
US
Airways    8.7%    8.5%    8.6%   6.9%   6.6%   6.6%   6.3%
America                                                4.2%
West       4.0%    3.9%    4.1%   4.2%   4.3%   4.3%
Merged     0.0%    0.0%    0.0%   0.0%   0.0%   0.0%   0.0%
US
Airways                                                       9.9%   10.0%   9.2%   9.8%   9.8%
Trans      4.3%    3.7%
World
Airlines
American   15.6%   15.9%
 Airline    2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
Merged      0.0%    0.0%    19.1%   18.2%   17.2%   16.4%   16.2%   15.9%   15.5%   15.0%   14.9%   14.8%
American
AirTran     0.9%    1.0%     1.3%    1.6%    1.8%    2.1%    2.6%    3.0%    3.3%    3.4%    3.4%
Southwe     8.2%    9.0%    10.0%   10.5%   10.4%   11.4%   12.7%   13.2%   14.4%   14.6%   14.5%
st
Merged      0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    18.6%
Southwe
st
Continent   8.2%    8.4%    8.2%    8.3%    8.1%    8.2%    8.9%    8.9%    9.0%    8.9%
al
United      16.0%   15.1%   14.3%   13.9%   13.9%   13.0%   14.0%   13.4%   13.0%   13.0%
 Merged      0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%   21.6%   20.6%
  United
Northwes
     t       8.4%    8.4%    8.4%    8.4%    8.3%    8.3%    7.6%    7.6%
   Delta    16.9%   16.5%   16.5%   16.5%   16.4%   16.4%   14.3%   13.7%
 Merged      0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%    0.0%
   Delta                                                                    21.0%   20.6%   20.8%   20.3%
   Total    91.3%   90.6%   89.4%   88.5%   87.0%   86.6%   86.8%   85.8%   86.0%   85.6%   85.0%   84.2%
Source: Bureau of Transportation Statistics
Source: Numbers are rounded.




Figure 6: Domestic Passenger Traffic and Capacity. Revenue Passenger-Miles and
Available Seat-Miles in Billions
                  Revenue            Available
   Year       Passenger-Miles       Seat-Miles
                  (billions)         (billions)
   2000             530.8              751.7
   2001             502.3              731.7
   2002             499.8              713.5
   2003             516.0              713.3
   2004             568.8              766.8
   2005             595.4              775.4
   2006             599.0              759.9
   2007             617.1              775.3
   2008             592.7              748.2
   2009             561.7              696.2
   2010             577.7              706.3
   2011             589.2              714.5
Source: Bureau of Transportation Statistics
NOTES: Load factor in 2000 was 71 percent.
Load factor in 2011 was 82 percent
Figure 7: Airfares by Flight Length (Fourth Quarters from 2000 to 2011)

Market Definition (Average      Short-Haul       Medium-Haul        Long-Haul
        Distance)               (300 Miles)      (1,000 Miles)     (1,500 Miles)
Fourth Quarter 2000                116                 177              226
Fourth Quarter 2001                 99                 154              185
Fourth Quarter 2002                106                 158              198
Fourth Quarter 2003                112                 158              197
Fourth Quarter 2004                109                 149              183
Fourth Quarter 2005                119                 158              198
Fourth Quarter 2006                116                 164              205
Fourth Quarter 2007                125                 170              207
Fourth Quarter 2008                135                 176              223
Fourth Quarter 2009                125                 167              208
Fourth Quarter 2010                136                 176              221
Fourth Quarter 2011                164                 192              237
Source: Bureau of Transportation Statistics
NOTE: All figures for 2008 and beyond exclude fees for checked baggage
implemented by most airlines. This service was previously included in the average
fares.

Table 1: Summary of Airline Fees (April 2012)
    Airline      Carry-on     First      Second       Ticket       Seat
                 Luggage     Checked     Checked     Change      Selection
                               Bag         Bag       Fee Fee1      Fee2
  AirTran                      Yes         Yes         Yes         Yes
  Alaska                       Yes         Yes         Yes
  Allegiant         Yes        Yes         Yes         Yes          Yes
  American                     Yes         Yes         Yes
  Delta                        Yes         Yes         Yes
  Frontier                     Yes         Yes         Yes
  JetBlue                                  Yes         Yes
  Southwest
  Spirit            Yes          Yes        Yes          Yes        Yes
  United                         Yes        Yes          Yes
  US Airways                     Yes        Yes          Yes
1
  More than 24 hours after ticket purchase
2
  No seat can be selected at time of purchase without a fee
Source: Airline Websites
Figure 8: Domestic Operating Profit and Loss of Major U.S. Airlines in Billions of
Dollars
             Operating Profit or –
    Year              Loss
             In billions of Dollars
   2000                 5.5
   2001                -9.1
   2002                -9.6
   2003                -4.0
   2004                -1.0
   2005                -2.3
   2006                 4.7
   2007                 6.6
   2008                -5.8
   2009                 0.2
   2010                 7.7
   2011                 4.9
Source: Bureau of Transportation Statistics

Figure 9: System-Wide Passenger Enplanements (in Millions)
Scheduled Service System-Wide (DOT Data)
              Number of
   Year      Enplanements
               (millions)
   2000          698.9
   2001          652.9
   2002          641.3
   2003          647.5
   2004          703.7
   2005          738.6
   2006          744.7
   2007          769.6
   2008          743.3
   2009          703.9
   2010          720.5
   2011          730.0
Source: Bureau of Transportation Statistics
Figure 10. Total Flight Operations and Percentage of Delayed or Cancelled Flights
                                Delayed plus          Total        Percentage of
          On-Time Flights
  Year                       Cancelled Flights     Operations        Delayed or
          (in Thousands)
                              (in Thousands)    (in Thousands)    Cancelled Flights
 2000          5,963               2,296              8,259             28%
 2001          6,061               1,894              7,955             24%
 2002          6,205               1,482              7,687             19%
 2003          6,234               1,552              7,786             20%
 2004          6,407               1,989              8,396             24%
 2005          6,403               2,097              8,500             25%
 2006          6,113               2,167              8,280             26%
 2007          5,988               2,392              8,380             29%
 2008          5,910               2,092              8,002             26%
 2009          5,726               1,658              7,384             22%
 2010          5,738               1,641              7,379             22%
 2011          5,706               1,686              7,392             23%
Source: Federal Aviation Administration
Note: Year 2002 – Post 9/11 Downturn
Note: Year 2007 – Peak year for delays and cancellations
Note: Year 2008 – Economic downturn begins in 2008

Figure 11: Major Passenger Airlines’ Operating Revenues and Expenses
($ in Billions) Calendar Year 2000 Through 2011
                                Operating        Operating
             Year               Revenues         Expenses
                                In Billions     In Billions
 2000                              $98.1           $92.6
 2001                              $85.3           $94.4
 2002                              $77.6           $87.2
 2003                              $82.3           $86.3
 2004                              $95.1           $96.0
 2005                             $105.5          $107.8
 2006                             $121.6          $116.9
 2007                             $129.3          $122.7
 2008                             $137.4          $143.2
 2009                             $115.2          $115.0
 2010                             $128.4          $120.7
 2011                             $142.8          $137.9
Source: Bureau of Transportation Statistics
Note: All amounts are rounded
Figure 12: Selected Legacy and Low-Cost Carrier Operating Profits and Losses
2011 ($ in Millions) (DOT Data)
                         Profit or Loss
        Airline
                          (In Millions)
Delta                         $2,245
Continental                    $950
US Airways                     $894
Southwest                      $652
Alaska                         $471
United                         $434
JetBlue                        $324
AirTran                        -$16
Frontier                      -$111
American                     -$1,170
Source: Bureau of Transportation Statistics


Figure 13: Fuel Cost and Consumption (Domestic Operations)
                       Gallons of Aviation                      Average Price of
                                            Annual Cost of
                        Fuel Consumed                            Aviation Fuel
        Year                                 Aviation Fuel
                            Annually
                                              In Billions
                           In Billions
 2000                         13.9               $10.8               $0.78
 2001                         13.1               $10.0               $0.76
 2002                         12.3               $8.6                $0.70
 2003                         12.4               $10.3               $0.83
 2004                         13.4               $15.1               $1.13
 2005                         13.3               $21.7               $1.63
 2006                         13.0               $25.1               $1.92
 2007                         13.0               $26.9               $2.07
 2008                         12.5               $37.2               $2.97
 2009                         11.1               $21.2               $1.90
 2010                         11.1               $24.8               $2.24
 2011                         10.9               $31.3               $2.88
Source: Bureau of Transportation Statistics
Figure 14: Debt-To-Investment Total Major Airlines
              Ratio of Debt
   Year          to Total
               Investment
   2000           52.7%
   2001           65.5%
   2002           87.3%
   2003           90.7%
   2004          101.7%
   2005          206.8%
   2006          105.2%
   2007           59.4%
   2008           49.9%
   2009           87.9%
   2010           77.8%
   2011           84.3%
Source: DOT Office of Aviation Analysis


Figure 15: Debt-To-Investment Individual Major Airlines
                         Profit or Loss
        Airline
                          (In Millions)
 Southwest                    $2,245
 Alaska                        $950
 Continental                   $894
 JetBlue                       $652
 US Airways                    $471
 Delta                         $434
 AirTran                       $324
 US Airways                    -$16
 United                       -$111
 American                    -$1,170
Source: DOT Office of Aviation Analysis

Figure 16: Airline Employment for US Certificated Carriers (in thousands)
                Year            Employment
                2000                668
                2001                600
                2002                591
                2003                558
                 Year              Employment
                 2004                 564
                 2005                 548
                 2006                 540
                 2007                 568
                 2008                 565
                 2009                 513
                 2010                 518
                 2011                 536
Note. Employment levels show total full-time equivalents (FTEs).
Source: Bureau of Transportation Statistics


Figure 17: Airport and Airway Trust Fund
                     Trust Fund        FAA Budget      Uncommitted
  Fiscal Year        Revenues            Request          Balance
                   (in $ Billions)    (in $ Billions)  (in $ Billions)
    FY 07               $11.9              $13.7            $1.5
    FY 08               $12.4              $14.1            $1.4
    FY 09               $10.9              $14.6            $0.3
    FY 10               $10.8              $16.0            $0.8
    FY 11               $11.7              $16.5            $1.4
    FY 12               $11.8              $18.7            $1.6
    FY 13               $13.0              $15.1            $2.4
Source: Federal Aviation Administration and Office of Management and Budget

Figure 18: System-Wide Passenger Enplanements (in Millions)
Scheduled Service System-Wide (DOT Data)
                 Number of
   Year         Enplanements
                  (millions)
   2000            698.9
   2001            652.9
   2002            641.3
   2003            647.5
   2004            703.7
   2005            738.6
   2006            744.7
   2007            769.6
   2008            743.3
   2009            703.9
              Number of
   Year      Enplanements
               (millions)
   2010          720.5
   2011          730.0
Source: Bureau of Transportation Statistics

Figure 19: Domestic Passenger Traffic and Capacity. Revenue Passenger-Miles and
Available Seat-Miles in Billions
                  Revenue            Available
   Year       Passenger-Miles       Seat-Miles
                  (billions)         (billions)
   2000             530.8              751.7
   2001             502.3              731.7
   2002             499.8              713.5
   2003             516.0              713.3
   2004             568.8              766.8
   2005             595.4              775.4
   2006             599.0              759.9
   2007             617.1              775.3
   2008             592.7              748.2
   2009             561.7              696.2
   2010             577.7              706.3
   2011             589.2              714.5
Source: Bureau of Transportation Statistics
NOTES: Load factor in 2000 was 71 percent.
Load factor in 2011 was 82 percent

Figure 20: Domestic Versus International Passenger Traffic. Measured in Revenue
Passenger-Miles in Billions
                Domestic          International
                 Revenue            Revenue
   Year
             Passenger-Miles    Passenger-Miles
                 (billions)         (billions)
   2000            530.8              438.1
   2001            502.3              392.8
   2002            499.8              373.2
   2003            516.0              368.8
   2004            568.8              418.2
   2005            595.4              446.0
   2006            599.0              459.9
                Domestic           International
                Revenue              Revenue
   Year
             Passenger-Miles     Passenger-Miles
                (billions)           (billions)
   2007            617.1               481.7
   2008            592.7               489.0
   2009            561.7               467.3
   2010            577.7               495.6
   2011            589.2               518.9
Source: Bureau of Transportation Statistics

Figure 21: International Passenger Traffic 2000 to 2008 By Geographic Region
Annual Revenue Passenger-Miles in Billions
                            Latin         Atlantic         Pacific
2000                         70.2           230.1           137.7
2001                         64.6           204.3           123.9
2002                         60.8           190.4           122.0
2003                         64.4           193.8           110.6
2004                         71.6           215.3           131.4
2005                         77.4           225.4           143.2
2006                         80.4           231.6           147.9
2007                         84.9           247.5           149.3
2008                         86.9           254.5           147.6
2009                         83.9           243.9           139.6
2010                         90.5           253.2           151.9
2011                         94.9           265.6           158.4
Source: Bureau of Transportation Statistics

Figure 22: Domestic and International Air Cargo Traffic. (Annual Revenue Ton-
Miles in billions) From 2003 through 2011.
      Quarter Year             Domestic Traffic    International Traffic
                            (Revenue Ton-Miles)   (Revenue Ton-Miles)
                                  in billions            in billions
           2003                       19                     33
           2004                       21                     37
           2005                       21                     38
           2006                       21                     39
           2007                       21                     40
           2008                       19                     38
           2009                       16                     33
           2010                       18                     40
           2011                       17                     40
Source: Bureau of Transportation Statistics
Note: All numbers are rounded

Figure 23. Change in Scheduled Flights for Legacy and Low-Cost Carriers
June 2012 vs. June 2007
                        Percent
      Airline
                        Change
Allegiant                130%
Spirit                     49%
JetBlue                    23%
Frontier                    3%
Southwest                   2%
Sun Country                -7%
American                  -14%
United                    -15%
Alaska                    -15%
US Airways                -16%
AirTran                   -16%
Delta                     -18%
Source: Federal Aviation Administration

Figure 24. Percent of Scheduled Flights by Code Share Partners
June 2012 vs. June 2000
      Airline           Percent       Percent
                         Share          Share
                       June 2000     June 2012
American                  40%            51%
Delta                     40%            59%
United                    34%            68%
US Airways                49%            63%
Source: Federal Aviation Administration

Figure 25. Regional Changes in Available Seats
June 2012 vs. June 2007

                                                        Percent
                          Region
                                                        Change
West (includes Alaska, Arizona, California,
Colorado, Hawaii, Idaho, Montana, Nevada, New             -9%
Mexico, Oregon, Utah, Washington, Wyoming)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
                                                          -16%
Michigan, Minnesota, Missouri, Nebraska, North
                                                            Percent
                        Region
                                                            Change
Dakota, Ohio, South Dakota, Wisconsin)
South (includes Alabama, Arkansas, Delaware,
District of Columbia, Florida, Georgia, Kentucky,
Louisiana, Maryland, Mississippi, North Carolina,            -6%
Oklahoma, South Carolina, Tennessee, Texas,
Virginia, West Virginia)
Northeast      (includes   Connecticut,    Maine,
Massachusetts, New Hampshire, New Jersey, New                -12%
York, Pennsylvania, Rhode Island, Vermont)
Source: Federal Aviation Administration

Figure 26. Change in Scheduled Flights by Flight Distance,
June 2012 vs. June 2007 (in Miles)

                                               Percent
   Range in Miles           Category
                                               Change
0 to 249                  Short Haul             -24%
250 to 499                Short Haul             -16%
500 to 999               Medium Haul             -10%
1,000 to 1,499           Medium Haul              -1%
1,500 to 2,499            Long Haul               -4%
2,500 +                   Long Haul                7%
Source: Federal Aviation Administration




Figure 27. Available Seats on Short-Haul Flights by Type of Air Carrier,
June 2012 vs. June 2007
                             Available     Available
                               Seats         Seats
    Type of Air Carrier
                            June 2007     June 2012
                           (in Millions) (in Millions)
Legacy                          8.3           6.7
Regionals and Others            1.6           1.2
Low-Cost                        2.0           1.7
Source: Federal Aviation Administration

Figure 28. Change in Scheduled Flights at Major Airports,
June 2012 vs. June 2007

                          Percent Change in
       Airport
                          Scheduled Flights

Cincinnati                     -63.1%
Pittsburgh                     -40.1%
Memphis                        -35.5%
Cleveland                      -26.3%
Honolulu                       -26.3%
Tampa                          -26.3%
St. Louis                      -25.0%
Salt Lake City                 -22.4%
Orlando                        -18.3%
San Diego                      -17.4%
Washington Dulles              -16.9%
Las Vegas                      -16.5%
Houston                        -14.9%
Kennedy                        -13.9%
Chicago Midway                 -12.2%
Boston                         -11.3%
Ft. Lauderdale                 -11.1%
Portland                        -9.7%
Phoenix                         -9.5%
Philadelphia                    -8.5%
Seattle                         -6.3%
LaGuardia                       -6.2%
Newark                          -6.1%
Atlanta                         -5.8%
Dallas                          -3.8%
Chicago O’Hare                  -2.4%
Detroit                         -2.3%
Los Angeles                     -1.8%
Minneapolis                     -1.5%
Miami                           -0.5%
Washington Reagan                1.7%
Baltimore                        2.3%
Denver                           4.4%
Charlotte                       11.1%
San Francisco                   24.0%
Source: Federal Aviation Administration

Figure 29. Change in Scheduled Domestic Flights by Aircraft Size
June 2012 vs. June 2007
                              Scheduled Flights      Scheduled Flights
        Aircraft Type             June 2007              June 2012
                               (in Thousands)         (in Thousands)
Propeller                             147                    97
RJ 30-70                              269                   214
RJ 71-100                             25                     58
Jet 101-170                           348                   306
Jet 171-250                           47                     48
Jet 251-400                            9                      5
Source: Federal Aviation Administration


Figure 30. Change in Scheduled Departures by Size of Community
June 2012 vs. June 2007
                          Percent
  Size of Community
                          Change
Large                       -8%
Medium                     -22%
Small                      -18%
Non-Hub                    -22%
Source: Federal Aviation Administration

Figure 31. Regional Changes in Available Seats at Non-Hub Airports
June 2012 vs. June 2007

                                                         Percent
                          Region
                                                         Change
West (includes Alaska, Arizona, California,
Colorado, Hawaii, Idaho, Montana, Nevada, New              -5%
Mexico, Oregon, Utah, Washington, Wyoming)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North             -8%
Dakota, Ohio, South Dakota, Wisconsin)
South (includes Alabama, Arkansas, Delaware,
District of Columbia, Florida, Georgia, Kentucky,
Louisiana, Maryland, Mississippi, North Carolina,          -1%
Oklahoma, South Carolina, Tennessee, Texas,
Virginia, West Virginia)
                                                        Percent
                        Region
                                                        Change
Northeast    (includes     Connecticut,    Maine,
Massachusetts, New Hampshire, New Jersey, New            -19%
York, Pennsylvania, Rhode Island, Vermont)
Source: Federal Aviation Administration

Figure 32. Essential Air Service Funding and Number of Subsidized Communities
                     Number of EAS             Appropriations
  Fiscal Year          (Subsidized)               (Subsidy)
                      Communities               (in Millions)
     FY01                  115                       $50
     FY02                  123                      $113
     FY03                  126                      $102
     FY04                  140                      $102
     FY05                  146                      $102
     FY06                  152                      $109
     FY07                  147                      $109
     FY08                  146                      $109
     FY09                  153                      $138
     FY10                  159                      $200
     FY11                  154                      $195
     FY12                  162                      $143
     FY13                  162                      $118
     FY14                  162                      $107
     FY15                  162                       $93
Source: Department of Transportation
Note: FY13 - FY15 are forecasted values
Figure 33. Number of En Route Center Flight Operations
                     Number of
    Year            Operations
                    (in Millions)
    2000                46.1
    2001                44.4
    2002                44.1
    2003                44.0
    2004                46.8
    2005                47.2
    2006                46.3
    2007                46.7
    2008                43.9
                   Number of
    Year           Operations
                  (in Millions)
    2009               40.0
    2010               40.8
    2011               41.1
Source: Federal Aviation Administration

Figure 34. Number of Tower Flight Operations
          Commercial Aviation       General Aviation            Military
                Number of              Number of              Number of
  Year
                Operations             Operations            Operations
               (in Millions)          (in Millions)          (in Millions)
  2000             23.5                    7.5                    0.9
  2001             22.2                    7.3                    1.0
  2002             21.6                    7.2                    1.0
  2003             21.3                    6.8                    1.0
  2004             22.1                    6.7                    0.9
  2005             23.1                    6.5                    0.9
  2006             23.1                    6.3                    0.9
  2007             23.3                    6.2                    0.8
  2008             22.2                    5.7                    0.8
  2009             20.4                    5.0                    0.9
  2010             20.4                    4.9                    0.9
  2011             20.3                    4.8                    0.9
Source: Federal Aviation Administratioz


Figure 35. Percent Change in the Number of Arrivals at Major Airports,
2011 vs. 2007
    Month        Percent Change
January               -14%
February              -13%
March                  -9%
April                 -11%
May                   -12%
June                   -8%
July                   -9%
August                -12%
September             -11%
October               -13%
November              -14%
   Month         Percent Change
December               -11%
Source: Federal Aviation Administration

Figure 36. Delayed Flights at Major Airports,
2011 vs. 2007 and 2002
                     2002               2007              2011
   Month        Arrival Delays     Arrival Delays    Arrival Delays
               (in Thousands)     (in Thousands)    (in Thousands)
January              122.4              183.2             134.6
February             97.6               192.1             127.5
March                139.6              197.9             145.7
April                110.2              169.5             154.2
May                  114.8              162.3             145.2
June                 127.2              210.5             144.3
July                 124.4              209.0             144.6
August               113.9              201.0             133.1
September            82.3               129.9             110.2
October              108.4              166.0             103.5
November             102.9              150.6             102.6
December             144.8              239.9             111.6
Source: Federal Aviation Administration



Figure 37. Rate of Delayed Flights at Major Airports,
2011 vs. 2007 and 2002
                    2002                2007               2011
   Month
              Percent Delayed     Percent Delayed    Percent Delayed
January            20.0%               26.9%              23.0%
February           17.1%               31.4%              23.9%
March              21.8%               28.2%              22.9%
April              17.5%               25.0%              25.4%
May                17.8%               23.1%              23.4%
June               19.9%               30.7%              23.0%
July               18.9%               29.5%              22.4%
August             17.0%               28.0%              21.0%
September          13.2%               19.6%              18.7%
October            16.4%               23.8%              17.1%
                    2002                2007              2011
   Month
              Percent Delayed     Percent Delayed   Percent Delayed
November           16.7%               22.3%             17.7%
December           22.9%               35.5%             18.6%
Source: Federal Aviation Administration

Figure 38. Length of Flight Delays at Major Airports
2011 vs. 2007 and 2002
                 2002          2007             2011
   Month
             (In Minutes) (In Minutes)      (In Minutes)
January          44.4          51.7             53.2
February         42.1          55.8             54.5
March            44.8          56.5             53.6
April            45.4          54.4             56.4
May              46.5          52.0             58.0
June             51.1          61.5             58.3
July             48.8          59.1             58.7
August           46.7          58.0             58.9
September        44.9          50.9             52.8
October          42.3          52.4             51.1
November         43.5          51.4             50.8
December         50.0          57.2             51.4
Source: Federal Aviation Administration


Figure 39. Number of Flights With Tarmac Delays of Longer than 3 Hours
                  Number of Flights
    Year
                    (in Hundreds)
    2000                 16.3
    2001                  7.9
    2002                  9.9
    2003                 13.7
    2004                 13.2
    2005                 10.8
    2006                 13.5
    2007                 16.4
    2008                 13.0
    2009                  8.7
    2010                  1.2
    2011                  0.5
Source: Bureau of Transportation Statistics

Figure 40. Flight Cancellations at Major Airports,
2011 vs. 2007 and 2002
                   2002             2007                   2011
  Month       Cancellations    Cancellations          Cancellations
             (in Thousands) (in Thousands)           (in Thousands)
January            11.3             16.1                   20.8
February            6.3             26.8                   22.8
March               8.5             18.8                    7.6
April               6.6             12.8                   11.1
May                 7.5              8.5                   10.9
June               10.4             19.0                    9.8
July                8.6             15.0                   10.1
August              6.9             13.8                   16.6
September           5.3              8.2                    5.5
October             6.0              9.6                    5.2
November            4.8              8.7                    4.2
December           11.1             22.8                    4.7
Source: Federal Aviation Administration


Figure 41. Rate of Delayed Flights at Congested Airports,
4th Quarter 2011
          Airport           Percent Delayed
New York – Newark                 31.3%
San Francisco                     25.1%
Philadelphia                      24.1%
New York – LaGuardia              21.9%
Washington Dulles                 21.4%
New York - JFK                    20.9%
Source: Federal Aviation Administration
Note: National Average = 18 percent

Figure 42. Percent Change in Number of Delays at Three Best and Worst Airports,
Summer 2011 vs. Summer 2007

        Airport           Percent Change
San Francisco                   9%
         Airport             Percent Change
Charlotte                     -6%
Newark                       -16%
Seattle                      -54%
Dallas-Ft. Worth             -55%
Cincinnati                   -59%
Source: Federal Aviation Administration

Figure 43. Airline Reported Causes of Flight Delays,
Summer 2011


  Causal Category               Percent

Late Arriving Aircraft        38%
Carrier Caused                27%
Weather                       20%
ATC Volume                     6%
Runway Closure                 1%
Other                          8%
Source: Federal Aviation Administration

Figure 44. Causes of Flight Delays – Adjusted for Late Arriving Aircraft,
Summer 2011


  Causal Category               Percent

Carrier Caused                44%
Weather                       32%
ATC Volume                    10%
Runway Closure                 1%
Other                         14%
Source: Federal Aviation Administration

Figure 45. Number of Passengers Denied Boarding vs. Enplaned Passengers
              Voluntarily       Involuntarily                      Enplaned
                                                 Total Denied
  Year          Denied              Denied                       Passengers
                                                 (in Millions)
             (in Millions)       (in Millions)                   (in Millions)
  2000           1.06                 .06            1.12             543
  2001            .86                 .04            .90              478
             Voluntarily    Involuntarily                       Enplaned
                                             Total Denied
  Year         Denied           Denied                        Passengers
                                              (in Millions)
            (in Millions)    (in Millions)                    (in Millions)
  2002           .80              .03              .83             467
  2003           .73              .04              .77             486
  2004           .70              .05              .75             522
  2005           .55              .05              .60             517
  2006           .62              .05              .67             552
  2007           .62              .06              .68             568
  2008           .62              .06              .68             576
  2009           .65              .07              .72             548
  2010           .68              .07              .75             595
  2011           .58              .05              .63             592
Source:  Bureau of Transportation Statistics and DOT Aviation Consumer Protection
Division
Note: Year 2000 had 1.12 million total denied boardings
Note: Year 2005 had 0.60 million total denied boardings
Note: Year 2011 had 0.63 million total denied boardings

Figure 46. Rate of Passengers Denied Boarding by Airline, 2011
                      Voluntary Denied     Involuntary Denied    Total Denied
       Airline           (per 10,000           (per 10,000        (per 10,000
                        Passengers)           Passengers)        Passengers)
JetBlue                      0.04                 0.01               0.05
Hawaiian                     0.72                 0.11               0.83
Alaska                       3.64                 0.82               4.46
Frontier                     4.23                 0.98               5.21
Southwest                    5.16                 0.65               5.81
US Airways                   7.43                 0.94               8.37
American                     8.27                 0.91               9.18
Continental                  7.84                 1.49               9.33
Delta                        10.13                0.31               10.44
Mesa                         13.05                2.27               15.32
United                       16.23                1.01               17.24
ExpressJet                   17.18                1.81               18.99
American Eagle               17.24                2.24               19.48
AirTran                      18.95                0.57               19.52
SkyWest                      19.96                0.68               20.64
Atlantic Southeast           26.40                0.91               27.31
Source: Bureau of Transportation Statistics and DOT Aviation Consumer Protection
Division
Note: Industry Average 10.57
Figure 47. Number of Mishandled Bag Reports versus Enplaned Passengers
                                             Enplaned
                     Total Bag Reports
       Year                                Passengers
                        (in Millions)
                                           (in Millions)
       2000                 2.7                517.5
       2001                 2.1                467.9
       2002                 1.8                471.4
       2003                 2.2                524.5
       2004                 2.8                575.4
       2005                 3.4                562.6
       2006                 4.1                605.1
       2007                 4.4                624.7
       2008                 3.1                595.8
       2009                 2.1                527.8
       2010                 1.9                554.5
       2011                 1.9                562.9
Source: Bureau of Transportation Statistics and DOT Aviation Consumer Protection
Division
Note: Year 2007 – 4.4 million Total Bag Reports
Note: Year 2011 – 1.9 million Total Bag Reports


Figure 48. Rate of Mishandled Bag Reports by Airline, 2011
                              Reports
      Airline
                       per 1,000 Passengers
AirTran                         1.63
Frontier                        2.21
JetBlue                         2.21
Hawaiian                        2.63
Delta                           2.66
US Airways                      2.70
Alaska                          2.87
Continental                     3.35
American                        3.55
Southwest                       3.65
United                          3.66
SkyWest                         4.13
ExpressJet                      4.82
Mesa                            4.87
Atlantic Southeast              5.52
                             Reports
      Airline
                      per 1,000 Passengers
American Eagle                 7.32
Source: Bureau of Transportation Statistics and DOT Aviation Consumer Protection
Division
Note: Industry Average 3.39

Figure 49. Number of Passenger Complaints versus Enplaned Passengers
                         Passenger           Enplaned
       Year             Complaints         Passengers
                      (in Thousands)       (in Millions)
       2000                 17.4               585.3
       2001                 10.9               519.0
       2002                 6.2                510.5
       2003                 4.0                564.4
       2004                 4.6                619.1
       2005                 5.4                615.0
       2006                 5.7                663.1
       2007                 9.4                685.4
       2008                 7.4                657.3
       2009                 5.5                579.7
       2010                 7.5                618.6
       2011                 7.5                631.7
Source: Bureau of Transportation Statistics and DOT Aviation Consumer Protection
Division
Note: Year 2003 – 4.0 thousand Passenger Complaints
Note: Year 2011 – 7.5 thousand Passenger Complaints

Figure 50. Rate of Passenger Complaints by Airline, 2011
                           Complaints
      Airline
                     per 10,000 Passengers
Southwest                     0.32
Alaska                        0.48
Mesa                          0.62
Hawaiian                      0.70
AirTran                       0.72
SkyWest                       0.73
Frontier                      0.76
Atlantic Southeast            0.88
ExpressJet                    1.04
JetBlue                       1.08
                            Complaints
      Airline
                      per 10,000 Passengers
Delta                          1.23
American Eagle                 1.45
American                       1.46
Continental                    1.81
US Airways                     1.91
United                         2.21
Source: Department of Transportation
Note: Industry Average 1.18
Note: Southwest – 0.32 Complaints per 10,000 Passengers
Note: United – 2.21 Complaints per 10,000 Passengers

Figure 51. Types of Passenger Complaints Reported, 2011
                             Number        Percent of
    Type of Complaint
                             Reported        Total
Flight Problems               3,656           32%
Baggage                       1,850           16%
Reservations, Ticketing,
                               1,447         12%
and Boarding
Customer Service               1,287         11%
Refunds                         986          9%
Other                          2,319         20%
Source: Department of Transportation
